<html>
<title> - THE 2011 INTERNATIONAL RELIGIOUS FREEDOM REPORT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                   THE 2011 INTERNATIONAL RELIGIOUS 
                             FREEDOM REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

                           Serial No. 112-107

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-266PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Leonard Leo, chairman, U.S. Commission on International 
  Religious Freedom..............................................     6
Fr. Ricardo Ramirez, Bishop, Diocese of Las Cruces, former 
  commissioner, U.S. Commission on International Religious 
  Freedom........................................................    31
Mr. Benedict Rogers, East Asia team leader, Christian Solidarity 
  Worldwide......................................................    42
Rev. Majed El Shafie, president and founder, One Free World 
  International..................................................    71
R. Drew Smith, Ph.D., scholar-in-residence, Leadership Center, 
  Morehouse College..............................................   105

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Leonard Leo: Prepared statement..............................     9
Fr. Ricardo Ramirez: Prepared statement..........................    33
Mr. Benedict Rogers: Prepared statement..........................    45
Rev. Majed El Shafie: Prepared statement.........................    74
R. Drew Smith, Ph.D.: Prepared statement.........................   109

                                APPENDIX

Hearing notice...................................................   128
Hearing minutes..................................................   129
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Material submitted for 
  the record.....................................................   130

 
            THE 2011 INTERNATIONAL RELIGIOUS FREEDOM REPORT

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:06 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. The subcommittee will come to 
order, and good afternoon everyone, and thank you for attending 
this important oversight hearing on the congressionally 
mandated International Religious Freedom Report and 
designations of Countries of Particular Concern for 2011.
    This is the first oversight hearing on the IRF Feport since 
I chaired a hearing on the 2006 report in December of that 
year. It is one of the series being held by this subcommittee 
that is examining the critically important issue of religious 
freedom. In June of this year, we held a hearing on 
prioritizing international religious freedom in U.S. foreign 
policy in the context of amending the International Religious 
Freedom Act of 1998, also known as IRFA. We also examined 
freedom of conscience and religion in the context of China's 
and North Korea's overall abysmal human rights records.
    A study by Dr. Brian Grim of the Pew Forum on Religion and 
Public Life, who testified before our subcommittee in June, 
found that almost 70 percent of the world's population lives in 
countries with high or very high restrictions on religion. 
Although this study was conducted between 2006 and 2009, it was 
apparent back in the late 1990s that the fundamental human 
right of religious freedom was under severe attack around the 
world.
    Congress gave expression to our commitment to international 
religious freedom with the passage in 1998 of IRFA, which 
concretely established the promotion and protection of 
religious liberties as a serious foreign policy goal. I was 
shocked at the time when IRFA was strongly opposed on the 
record by the Clinton administration. John Shattuck, then the 
Assistant Secretary for Democracy, Human Rights, and Labor, 
claimed right here in this room at that witness table that it 
would establish a hierarchy of human rights under U.S. law and, 
therefore, they opposed it.
    I chaired the hearings on the legislation and I, as well as 
others, pointed out that, for example, when we fought against 
apartheid and enacted laws to mitigate the abomination of 
racism in South Africa, we certainly did not detract from other 
human rights policies. Instead, it was always value added. 
Similarly, we took up the cause of Soviet Jewry, and the 
Jackson-Vanik amendment was employed with such effectiveness to 
help release Refuseniks, and we even risked superpower 
confrontation in order to release Soviet Jews who were being 
harassed and persecuted in the former Soviet Union. It did not 
detract from any of our other human rights laws. It was not a 
hierarchy of human rights. It was all value added.
    In like manner, the International Religious Freedom Act was 
an important--and I would say historic addition--to the overall 
efforts to defend and promote human rights by focusing the 
spotlight on one of the most fundamental of all human rights. 
We persisted and eventually the bill, authored by my good 
friend and colleague, Frank Wolf of Virginia, was signed into 
law.
    A critical component of the law is the requirement that the 
State Department review foreign countries each year and submit 
a report on the status of religious freedom to Congress. Those 
countries found to be engaged in or tolerating particularly 
severe violations of religious freedom during the preceding 12 
months, are to be designated as Countries of Particular 
Concern, or CPC countries.
    In September, the Department of State issued its report for 
the last 6 months of 2010. The reason for the abbreviated 
report is to introduce a new reporting cycle that will be based 
on the calendar year instead of the previous July to June 
reporting period.
    The State Department also notified Congress in September 
that eight countries have been redesignated as CPCs: Burma, 
China, Eritrea, Iran, North Korea, Saudi Arabia, Sudan, and 
Uzbekistan. These are the same eight countries that previously 
had been designated by the Bush administration on January 16 of 
2009.
    Pursuant to the IRF Act, the Secretary must impose new 
Presidential actions, issue waivers or authorize an additional 
90-day extension for such actions against these eight countries 
by December 12. I and other Members of Congress are strongly 
urging the administration not to double-hat sanctions against 
these countries as has been done previously, but to impose 
measures that have some teeth and that are likely to produce 
the desired results. Any thoughts from our witnesses about what 
actions should be taken would be both timely and most 
appreciated.
    The U.S. Commission on International Religious Freedom 
recommended several additional countries be added to that list. 
They include Egypt, Iraq, Nigeria, Pakistan, Turkmenistan, and 
Vietnam. I would also be interested in hearing from our 
witnesses as to whether they agree with the Commission that any 
or all of these countries should be CPC countries.
    Just 2 days ago, I chaired a hearing of the Helsinki 
Commission on the horrific plight of Coptic Christians in 
Egypt. In July, the Foreign Affairs Committee accepted two 
religious freedom amendments that I proposed to the Foreign 
Relations Authorization Act, or H.R. 2583. One calls on the 
administration to include the protection of Coptic Christian 
communities as a priority in our diplomatic engagements with 
the Government of Egypt, and the other prohibits increased 
nonhumanitarian assistance to Vietnam until its government 
makes substantial progress toward respecting the right to 
freedom of religion, among other requirements, rather than what 
they doing now, which is serious regression.
    I was also deeply disturbed by the assassination of 
Pakistan's Federal Minister of Minorities, as we all were, and 
joined by several people on this subcommittee and throughout 
the House, including Frank Wolf and so many other Members, when 
Shahbaz Bhatti on March 12 of this year died by assassination.
    I had met personally, on a number of occasions, with 
Minister Bhatti when he visited Washington, DC, and was 
extremely inspired, encouraged and nearly awed by his courage 
and by his commitment to promote the rights of religious 
minorities and harmony among all faiths in his country. His 
killing was a tragic loss for all Pakistanis, and the ongoing 
failure of the Pakistani Government to identify his assassins 
and bring them to justice is an ongoing violation of respect 
for the religious freedom.
    In closing, I would like to note that the State 
Department's Ambassador-at-Large for International Religious 
Freedom, Dr. Suzan Johnson Cook, was invited to testify at this 
hearing and present the report written by her office. 
Unfortunately, the State Department refused to allow her to 
appear without another State Department official on her panel. 
Given the important responsibilities assigned to the 
Ambassador-at-Large pursuant to the IRF Act, including 
advancing the right to religious freedom abroad through 
diplomatic representations on behalf of the United States, our 
subcommittee looks forward to the opportunity to hear from 
Ambassador Johnson Cook when she is allowed to testify on her 
own.
    And I would point out parenthetically that time and again 
in this room we have had the Ambassador-at-Large sit right 
there and give a world view, country specific view, as to what 
the Bush administration, or what they were doing in the last 
year of the Clinton administration, to advance fundamental 
human rights relative to religious freedom. We hope that 
Ambassador Johnson Cook will be here at some point.
    I now yield to my friend, Donald Payne, the ranking member.
    Mr. Payne. Thank you very much and let me begin by thanking 
Chairman Smith for calling this hearing on the State 
Department's 2011 International Religious Freedom Report. This 
hearing follows a June hearing on the U.S. Commission on 
International Religious Freedom (USCIRF) 2011 report.
    I would like to thank our distinguished witnesses for being 
here today to shine light on religious freedom and justices 
throughout the world. Mr. Leo, you testified at the hearing as 
well at that time, and I thank you for agreeing to return 
again.
    According to the Pew Research Center's Forum on Religion 
and Public Life, the majority of the world's populations, some 
70 percent, live under high or very high restrictions on 
religious practice. Some 2.2 billion people live in nations 
where government restrictions or social hostilities are 
increasing. A combination of religious discrimination, 
political exclusion and social unrest is dangerous for conflict 
and extremist groups, which often thrive under such 
circumstances by exploiting the grievances of disenfranchised 
religious minorities. Many times they do not really have the 
true concerns about the problem. However, they move in to 
exploit the situation, and that creates a difficult situation.
    Take Nigeria, where the nebulous Islamic extremist group 
Boko Haram has become increasingly active. This August, for the 
first time, the group attacked a Western target, the U.N. 
building in Abuja. This week Nigeria's President, Goodluck 
Jonathan, announced a special security fund to help the 
military tackle Boko Haram. However, to successfully limit the 
group's recruitment base, social development and interface 
dialogue must be a priority.
    We note that Nigeria's interreligious tensions stem from a 
myriad of nonreligious civilian grievances against the 
government, including the lack of basic social services and 
adequate distribution of wealth, corruption, and laws that 
allow discrimination in various areas, including employment and 
political participation, based on whether an individual was 
considered to be a native or a settler in a given geographic 
area. The addendum to the 2011 State Department report cites an 
example of a property dispute which ignited clashes between 
Muslims and Christians leaving 96 dead.
    So we see people move in to exploit some of the problems 
that the government has left unanswered, interfaith conflict 
resolutions and traditional community-based mediation 
mechanisms are key to addressing these tensions. But the 
Nigerian Government will need to do more through development 
and improved governance to tackle the root causes of grievances 
in the same way that they instituted initiatives in their 
government to successfully target human trafficking, making 
Nigeria, on the one hand the only African nation ranked as a 
Tier I country in the 2011 Trafficking in Persons report. The 
Nigerian Government can also use innovative approaches to 
address this challenge, on the one hand extremely successful, 
really have made tremendous strides. We heard that in a recent 
hearing that we had. Tier I, which is unusual for many of the 
developing countries in Africa, but in religious persecution we 
find just the opposite. So somehow we have got to be able to 
translate the same interests that we have and that area into 
this.
    As Dr. Smith points out in his testimony, many of the most 
atrocious violators of religious freedom are also the most 
authoritarian and oppressive dictators. In Sudan, Bashir's 
attempt to severely restrict religious freedom were among the 
factors that fueled the country's decade long civil war between 
the North and the South, 4 million people displaced, 2 million 
people died since 1989 when the conflict began.
    I was in Juba at the joyful celebration of South Sudan's 
independence this summer. However, since then there have been 
numerous clashes on the border area. Adding to his laundry list 
of gross human rights violations against his own people, Bashir 
continues to impose Sharia law on Sudan's citizens and 
continues to discriminate against non-Muslims.
    I look forward to hearing from our panelists about how the 
United States and the international community can work to 
improve interfaith conflict resolutions in countries like Sudan 
by supporting U.S. and indigenous peace-building solutions.
    The United States Institute of Peace is making great 
strides in this area. Yet not everyone in Congress believes 
that investing in peace building is better than taking a 
military approach, and the organization's funding is currently 
in jeopardy.
    For example, USIP's religious and peacemaking center is 
promoting interfaith dialogue and mediation in combat zones. 
The center announced a 2006 study, authored a 2006 study which 
demonstrated that military chaplains as clergy and officers are 
well suited to serve as intermediaries between military and 
religious leaders in the area of conflict and post-conflict 
stabilization.
    A recent article in the Atlantic Magazine highlighted the 
story of a naval chaplain, Lieutenant Commander Nathan Solomon, 
an Afghan army captain and mullah, Abdul Khabir. The two sought 
to refute Taliban propaganda about Afghan soldiers and improve 
relations with the locals through both dialogue and service. 
The two managed to bring together local citizens and religious 
leaders from various tribes to discuss the negative forces that 
the Taliban is having on both Islam and Afghanistan.
    The article closes with Solomon, the noncombatant, who had 
perhaps shaped the battlefield as powerfully as any bullet fire 
or bomb dropped across Afghanistan that particular day.
    These innovative approaches are important in fighting 
religious persecution and resolving religious conflict 
globally. And we cannot focus on defending the right of only 
one or two religions when promoting religious tolerance. People 
of all faiths, Christians, Muslims, Jews, Buddhists, Hindus, 
Sikhs and all the rest deserve equal rights to practice their 
faith without persecution.
    I look forward to our discussion on how USCIRF is working 
to protect the rights of all faiths as well as hearing from our 
second panel of experts about how to improve U.S. programs 
aimed at eliminating religious persecution and promoting 
interfaith conflict resolution.
    Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you very much, Mr. Payne. 
Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman, I have no comment.
    Mr. Smith of New Jersey. Okay. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
Payne for holding this hearing about the State Department's 
International Religious Freedom Report. This really is part of 
the human rights jurisdiction of this subcommittee, so I 
appreciate the focus that is being given to this topic, and I 
really hope we can shed light on the serious human rights 
infringements that far too many around the world encounter.
    We have heard the daunting statistics: An estimated 6.8 
billion people, 70 percent of the world's population, live 
under high restrictions on religious activity. In countries 
around the world minority religious groups are targets of state 
sanctioned repression, while others go so far as providing safe 
havens for violent extremism, or suppressing religious 
expression virtually writ large.
    Evidence shows the U.S. has a strong interest in promoting 
religious freedom globally. As with other indicators of 
democracy and human rights, nations that respect religious 
tolerance generally enjoy greater economic prosperity and 
social stability.
    I look forward to hearing from the panelists on these 
trends along with the recommendations of the most strategic and 
effective means for the U.S. and the international community to 
influence governing systems to respect all human rights, 
including religious freedom, and foster attitudes of greater 
tolerance around the world.
    I am especially interested in how we might strengthen our 
efforts to support interfaith dialogue and public diplomacy 
tools that promote religious freedom.
    In closing, I would like to thank the panelists for their 
testimony and their time and expertise that you bring to bear 
today.
    I yield back.
    Mr. Smith of New Jersey. Thank you very much, Mr. Carnahan. 
I would now like to welcome to the witness table Mr. Leonard A. 
Leo, who serves as executive vice president of the Federalist 
Society, but he is here today as the chairman of the U.S. 
Commission on International Religious Freedom, and has served 
as commissioner for USCIRF since 2007.
    The Commission was created by the International Religious 
Freedom Act of 1998 and has the legislative mandate to review 
the facts and circumstances of religious freedom violations 
presented in the administration's human rights and 
international religious freedom reports and to make policy 
recommendations to the President, the Secretary of State, and 
Congress with respect to international religious freedom 
matters.
    Mr. Leo is a prolific author, has published several 
articles on religious liberty under the U.S. Constitution. 
Among his many activities, he has served as U.S. Delegate to 
the U.N. Commission on Human Rights and is involved with the 
U.S. National Commission to the U.N. Educational, Scientific, 
Cultural Organization.
    Mr. Leo received his undergraduate degree with high honors 
from Cornell University in 1987 and his law degree from Cornell 
Law School with honors in 1989. Mr. Leo, the floor is yours.

  STATEMENT OF MR. LEONARD LEO, CHAIRMAN, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Leo. Thank you very much, Mr. Chairman. It is a 
privilege to be here. We are very grateful, Mr. Chairman, for 
your leadership on these issues involving the preservation of 
freedom of religion around the world. Mr. Payne, it is nice to 
see you again. We had a wonderful conversation about a number 
of African countries during the last hearing and we are very 
grateful for your leadership in Sudan and Nigeria, as you 
mentioned, and a number of other countries, and we are, as a 
commission, always interested in talking with you about your 
experiences in that part of the world where we have been 
spending a lot of our time and attention.
    Mr. Chairman, with your permission, I would like to have 
the full content of my testimony entered into the record, not 
the redacted version.
    Mr. Smith of New Jersey. Without objection.
    Mr. Leo. Well, again, Mr. Chairman and Ranking Member Payne 
and members of the committee, on behalf of the U.S. Commission 
on International Religious Freedom, or USCIRF, I am grateful 
for today's opportunity to testify about the State Department's 
2011 Annual Report on International Religious Freedom, or the 
IRF Report, as it is known, and the critical role of the 
legislative and executive branches and USCIRF in promoting 
religious freedom abroad.
    Religious freedom, of course, is a fundamental human right 
and a key issue in countries that top our foreign policy 
agenda. From Egypt to China, Iraq to Sudan, Nigeria to Vietnam, 
Russia to Turkey, promoting and protecting this right has never 
been more violent or challenging.
    By any measure, religious freedom matters, and yet as you 
have noted, across the globe it is routinely violated. I know a 
number of you mentioned the Pew study, which was quite alarming 
and disconcerting. Members of the every religious community are 
being persecuted somewhere in the world, Hindus, Sikhs, 
Catholics, Eastern Orthodox, evangelicals, Jews, Baha'is, 
Ahmadis, Sunnis, Sufis, Uyghur Muslims, Tibetan Buddhists, the 
Falun Gong, Jehovah's Witnesses. It is truly chilling to see 
the number of religious minorities that are persecuted, and in 
some countries it is majority Muslim communities that are even 
persecuted by their own governments. And now this raises an 
obvious question, why should we as the United States care about 
this?
    Well, first of all, of course, we should care because first 
it is wrong to hunt down, imprison, torture, and kill people 
simply because they want to follow the dictates of their 
conscience. We also should care because every available study 
finds that religious freedom is correlated with stability and 
security in this world. Nations that fail to protect religious 
freedom and other rights are breeding grounds for poverty, war 
and violent extremist movements which give rise to terrorism, 
of course, Mr. Payne, Nigeria being a very perfect example of 
this right now.
    In the struggle for religious freedom overseas, USCIRF 
remains the world's only independent government body fully 
dedicated to this cause, and through our work we spotlighted 
the world's worst religious freedom violators. We have helped 
to get religious prisoners released in places like Saudi Arabia 
and Turkmenistan. We helped lay the groundwork this year for 
the defeat this year at the U.N. Defamation of Religions 
Resolution, essentially a global blasphemy measure by 
partnering with Members of Congress, the State Department and 
specific U.N. member states.
    We raised the need to identify Iranian officials and 
entities responsible for severe religious freedom violations 
and imposed travel bans and asset freezes on such offenders. 
These sanctions are included in the Comprehensive Iran 
Sanctions, Accountability, and Divestment Act, which requires 
the President to impose tough sanctions against Iranian human 
rights and religious freedom violators.
    As part of its continued concern about religious freedom in 
Sudan, USCIRF was the first entity to call for the U.S. 
Secretary of State's direct engagement in the implementation of 
the Comprehensive Peace Agreement and was one of the first U.S. 
Government entities to meet with U.S.-Sudanese refugees who had 
fled aerial bombardments in the Nuba Mountains and were now at 
the Aida refugee camp in South Sudan. Our staff just came back 
from that area a couple of weeks ago and the situation is 
really concerning and chilling in the border region, as you 
noted, Mr. Payne.
    USCIRF recently released a landmark study, which I have 
here, detailing how Pakistan's educational system, both its 
public schools and madrasas, serve as an incubator of 
intolerance and religious extremism, while also revealing some 
unexpected opportunities to pursue positive reforms.
    By any reasonable calculation, USCIRF is an effective and 
pivotal advocate for freedom of religion or belief, yet our 
commission, of course, cannot go it alone. Simply stated, we 
need both our legislative and executive branch partners to help 
us fulfill our mission.
    In September of this year, the full House voted 
overwhelmingly to reauthorize our commission. The Senate has 
yet to pass a measure reauthorizing USCIRF and USCIRF is on the 
verge of expiring. This must not happen. It would signal to the 
world that the United States is retreating from the cause of 
religious freedom. So our hope is that the Senate will act and 
hopefully can act this week.
    Clearly, we need Congress, and we also need the executive 
branch as full partners in the religious freedom battle. That 
includes the State Department--and let me commend the great 
work by Ambassador Johnson Cook and her team at the Office of 
International Religious Freedom in compiling the September 2011 
IRF Report. We applaud the concurrent release of the IRF Report 
and the State Department's designating the CPC status for the 
world's worst religious freedom violators.
    While we are disappointed that our recommendations for CPC 
status for countries like Vietnam and Pakistan were not acted 
on, we welcome the Barack Obama administration keeping prior 
CPC mentions on the list.
    Make no mistake, religious freedom matters. As Elie Wiesel 
once said, and I quote, ``I swore never to be silent whenever 
and wherever human beings endure suffering and humiliation. We 
must take sides. Neutrality helps the oppressor. . . . Silence 
encourages the tormentor. . . .'' What all victims need is to 
know that they are not alone, that when their voices are 
stifled we shall lend them ours, that while their freedom 
depends on ours, the quality of our freedom depends on theirs. 
Let us have a fully engaged U.S. Government dedicated to that 
proposition.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Leo follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. Mr. Leo, thank you very much for 
your testimony. This report that your commission put out this 
year, if not the best is certainly among the best, but I would 
argue the best year's to date. So thank you for a very 
comprehensive analysis of the problem. We have very concrete 
examples that hopefully Congress and the executive branch and 
all interested parties will take seriously and look to 
implement. But when it comes to legislation, obviously, that is 
here and at the White House that we need to be taking special 
note.
    You were too kind, I think, in suggesting that the existing 
CPC countries were retained. Of course there is always concerns 
that political issues will intervene and some of those 
countries might drop off. I think the shock value for China, 
for example, having been on it now virtually every year, they 
have realized that there is next to no sanction that follows. 
Therefore, my hope would be that the administration is serious, 
because just this morning I held my 33rd hearing on human 
rights abuses in China. As chairman of the Congressional-
Executive Commission on China. I see that things are getting 
far worse in China toward everyone who cares about human 
rights, workers rights, but especially toward those who 
manifest a belief in God, or, in the case of the Falun Gong, a 
spiritual exercise. The crackdown is pervasive and severe. It 
is not just ongoing, it is getting worse. And I would hope, as 
you have said and had said before, that we don't just talk 
about double hatting sanctions that are preexisting, that there 
be some breakout and that these countries like China and Sudan 
and certainly Saudi Arabia, which has gotten away virtually 
scot free as well, when it comes to penalty are held to 
account.
    But the countries you did mention, Egypt, Iraq, Nigeria, 
Pakistan, Turkmenistan and Vietnam, it is baffling as to why--
when we did this legislation and all of the hearings were held 
in this room by yours truly on Frank Wolf's bill and he 
testified, and he was obviously the author of the legislation, 
but we never meant that the designation should in any way be 
nothing but speaking truth to power, and yet these countries, 
which you so bravely, I think, put forward that should be on 
the list have been elusive in terms of the State Department 
putting those countries on the list. It is baffling, and I do 
hope we can get some answers from the administration as to why, 
because what they do in terms of penalty and the next step, you 
know, may go through an additional process of what is the most 
efficacious way of advancing the ball, but just tell the truth. 
If they are a Country of Particular Concern, put them on.
    Maybe you might want to speak to some of those countries. 
Egypt, we just had a hearing, as you know, on the forced 
abduction of Coptic Christian girls. Michele Clark testified, a 
great leader at the OSCE for years on human trafficking, and 
she has done great reporting, working with Christian Solidarity 
International on these young teenagers who are first abducted, 
and then forced into Islamic marriages when they turn 18, 
abused along the way, and yet our administration says these are 
just allegations. It is time, she said, we are beyond the 
allegation stage, it is real and it is pervasive.
    Egypt--you might want to speak to some of the issues that 
you believe ought to have been placed on CPC status.
    Mr. Leo. Thank you, Mr. Chairman. Well, first as an 
institutional matter, there is a real problem with passing over 
certain countries for CPC status, just as there is a real 
problem with not imposing sanctions or always double hatting 
sanctions. Eritrea is, I think, the only country that has 
direct sanctions under the IRFA on it.
    The problem with not designated countries--there clearly 
should be--and the problem with not having a sanctions regime 
that really works--is it sends a terrible message to (1) some 
of the countries that are on the list because they believe 
being placed on the list really doesn't have any impact. And 
(2) it sends a very strong message to other countries that we 
are not serious about bolstering preservation of freedom of 
religion around the world, so why should they do anything to 
improve conditions there back at home.
    And so it is very, very important and I think that the 
creators of the IRF Act understood this. The CPC designation 
process itself be very rigorous, and that similar countries be 
treated alike, and that they be placed on the list and that 
when you are placed on the list, there is some, there is some 
force that comes to bear on that country to ensure compliance 
with international human rights standards.
    And with regard to the particular countries you mentioned, 
Mr. Chairman, that are not on the list, for example, Pakistan 
and Egypt, conditions in Pakistan, as you well know, are 
horrific. In addition to various forms of state-sponsored 
repression, one of the most serious problems of Pakistan is 
impunity, private, sectarian violence that is unchecked by the 
government, and that is caused by a number of factors. For one 
thing it is caused by a blasphemy law which incentivizes people 
to take matters into their own hands and to seek to punish 
individuals who they believe are not treating religion 
properly.
    Secondly, as we noted in the report we just issued on 
Pakistan's educational system, the madrasas and public schools 
in Pakistan are teaching a level of intolerance that is just 
unacceptable, and that level of intolerance affects not only 
minority Muslim communities and Christians but also Hindus in 
Pakistan, and that is a very, very serious problem.
    Egypt, you know, Egypt you see a lot of the same problems, 
Mr. Chairman. You see, again, impunity, a situation where 
violence perpetrated against the Coptic Christian communities 
remains unchecked. This was a problem during the Mubarak 
administration, but it is a problem now just as well and there 
doesn't seem to be any end of it in sight.
    We have also seen very significant repression by the state 
of various religious minorities, including the Baha'i 
community.
    Mr. Smith of New Jersey. Without objection, I would like to 
add the summary, multi-page summary of ``Connecting the Dots: 
Education and Religious Discrimination in Pakistan,'' the 
excellent study. I know it is much longer, but this is the 
shorter version in which your office has looked so carefully 
into the educational system. If you want to just further 
elaborate on that briefly, because this is a very, very 
troubling report.
    Mr. Leo. Sure, be happy to. We commissioned a study to look 
at a number of public schools, as well as madrasas around 
Pakistan. And the idea behind the study was (1) to see what 
kinds of things are being taught to these children regarding 
various faiths in Pakistan, and then (2) to see what links 
existed between the education they received and the kinds of 
intolerance and extremism we see in Pakistani society right 
now.
    And much to our dismay, what we found was that there are 
elements of nationalism and prejudice that cause teachers to 
teach students in these schools that those who are religious 
minorities are not full citizens in Pakistan. All of the normal 
prejudices about Jews and Christians and Hindus are perpetrated 
through the curriculum, and what we found, through the focus 
groups and other studies that took place here over the course 
of the year, is that this discrimination and these pejorative 
references end up creating a young citizenry in Pakistan which 
is very intolerant of religious minorities, doesn't understand 
what they believe in, view them as a threat to Pakistan's 
culture, and that is a very, very serious, a very serious 
problem and, we believe, and I think the study bears this out, 
that that kind of extremist intolerant education creates great 
instability in the country.
    It fuels extremism, it causes Pakistan to be a breeding 
ground for violent extremist ideology that is exported 
throughout North and sub-Saharan Africa. Mr. Payne, if you go 
to northern Nigeria you will find pamphlets and leaflets that 
were sent over from Pakistan that are quite extremist in their 
orientation. So we think the educational system in Pakistan 
needs great improvement.
    Fortunately, the madrasas in Pakistan, the private schools, 
many of them actually want to reform the curriculum. But the 
stumbling block is that that would require a change in the 
rules or laws by the Interior Ministry of Pakistan and until 
the Interior Ministry responds and starts to change the rules 
of the game, those private madrasas can't change their 
curriculum. And so one of our objectives is to try to have the 
United States put as much pressure as possible on the Pakistani 
Government to change those rules so that those madrasas can 
reform their curricula which we believe in turn would put 
competitive pressure on the public schools to do the same.
    Mr. Smith of New Jersey. Very briefly on Vietnam because 
then I will yield to my colleagues for any questions, and I am 
going to submit several questions because time does not permit 
asking all of them.
    But would you briefly touch on what was clearly an about 
face, what looked like some progress was being made in the 
lead-up to the trade agreement between the U.S. and Vietnam and 
most-favored nation status being granted. Almost to the day 
there was a U-turn and people espousing human rights in 
general, and religious freedom in particular, have been rounded 
up and have been harassed, clearly indicating that CPC status 
ought to be imposed upon Vietnam.
    And secondly, in Sudan, with Bashir and Khartoum 
contemplating a new Constitution that would be very 
exclusionary toward people of other faiths and even some 
Muslims, many people are leaving, some going to South Sudan. 
Could you just touch on that very briefly?
    Mr. Leo. Well, as you point out, Mr. Chairman, the 
situation in Vietnam took an about face after WTO accession. 
The Vietnamese wanted WTO accession. Once they got it they 
walked away from the table on religious freedom. It is just 
that simple. There was a carrot and a stick around prior to WTO 
accession. When that went away there wasn't much left.
    And this is one of those instances where we believe that 
CPC status would really be a game changer, because we know that 
that kind of pressure has worked with the Vietnamese in the 
past and we are at a stage in our relations with Vietnam where 
there are bilateral negotiations on a lot of fronts involving 
trade and the economy and culture. And to have, you know, that 
leverage again would be extraordinarily valuable.
    You are quite right. The situation in Vietnam is getting 
worse, not better. You have public order, regulations and rules 
that are being used in a very arbitrary and abusive way to put 
away and detain people of faith, oftentimes Catholic priests. 
You have communities in Vietnam that have had their cemeteries 
and religious grounds bulldozed so that the state can erect 
resorts. This is a very, very serious problem.
    With regard to Sudan, where to begin. You know, all of us 
saw July 9 come and go, and there was a lot of fanfare in the 
press about Sudan's independence.
    Where is the press now? Mass graves of more than 5,000 
Christians and other Southern Sudanese, aerial bombardments at 
night of refugee camps, every single church and clergyman in 
Southern Kordofan is gone, they have left. There is not a 
single church in the entire state. When you combine all of that 
which is happening on the border region with the so-called 
constitutional reform, which is going to be taking place in 
North Sudan, where President Bashir has said he wants to create 
an Islamist state, you have an extremely unstable set of 
regimes and you have a set of regimes where human rights abuses 
will continue to be perpetrated in a way that it should be of 
enormous concern and alarm to the United States, but it is not 
making the pages of the New York Times, the Washington Post. It 
is not capturing the attention of most world leaders. It is a 
very, very serious situation.
    We met just a couple of weeks ago with the Deputy National 
Security Adviser to the German Chancellor and he wasn't aware 
of the mass graves in the border region of South Sudan. He 
wasn't aware of the area of bombardments, the refugee camps. It 
is terrible, absolutely terrible, and we must stand up and do 
something, and I think the first step that we should take right 
now is tell the North Sudanese that if they want debt relief, 
which is something they are trotting the globe trying to get 
right now, it should be conditioned on them creating a pathway 
for humanitarian assistance to the refugees in the border 
region and the cessation of aerial bombardments.
    And if they are not willing to undertake those two 
humanitarian gestures, which will not only protect people of 
faith but all peoples, then we should not bargain with 
Khartoum.
    Mr. Smith of New Jersey. Thank you. Mr. Payne.
    Mr. Payne. Once again, thank you very much, Mr. Leo, for 
your continued strong positions on this issue. I too am very 
disturbed at what is occurring in Sudan. We, as you indicated, 
thought July 9 would be a new time, a new day. The Government 
of Sudan has actually even had some of bombings across the 
border into South Sudan recently it has been reported. And the 
situation in Southern Kordofan is just untenable. As you know, 
there was supposed to be an agreement since Southern Kordofan 
was incorporated into Sudan although Southern Kordofan, as you 
know, fought with the South Sudanese and were part of the SPLM 
and SPLA. And so the fact that they have been incorporated in 
another country really makes them captives in Sudan where they 
really should be a part of South Sudan.
    And so I too agree there has been in the past several 
months, it seems, you know, a feeling on the part of some in 
the administration that because Bashir went along with July 9 
that there should be some carrots that should be given.
    But I agree certainly, I certainly concur with you that I 
think that there are too many unresolved issues, there is no 
question about Darfur. Darfur is even not discussed very much. 
People living out in desert conditions in Chad and refugee 
camps are going to be going on 8 years with no plans for Sudan 
to talk about a right to return for people in Darfur. They are 
just there.
    As a matter of fact, as you may recall, they even had the 
humanitarian food delivery interrupted about a year or so ago 
where they were excluding human rights organizations 
attempting--and decided which NGOs would have the right to give 
relief to the Darfurians. And so we have a very serious 
situation there.
    In your opinion, since the separation, and I know it has 
only been a short time, do you think that in the North things 
have in general have worsened or is there more unity in Sudan, 
Khartoum Government?
    Mr. Leo. Thank you, Mr. Payne and, again, thank you very 
much for your leadership on these issues as part of the caucus.
    Unfortunately, things have deteriorated in the northern 
part, in North Sudan on a couple of fronts. First of all, 
President Bashir has tried to snuff out all political 
opposition. And in the absence of that sort of diverse 
political opposition, there is not going to be a full throttle 
debate about what kind of constitutional government Sudan 
should have and whether freedom of religion will be an integral 
part of it. Because as you know, some of that political 
opposition is grounded in other nonconforming views of Islam. 
And so in the absence of that, you won't have the kind of 
diversity of opinion that would lead to a Constitution that had 
greater protections for religious minorities.
    Secondly, you know, there still have, in addition to 
certain nonconforming Muslims, there are still some Christians 
who live in the North and they are very, very concerned for 
their well-being because the kind of Islamist state that 
President Bashir has promised to create would be wholly 
consistent with their long-term well-being and survival in 
North Sudan, part of the reason why so many of them have fled 
to South Sudan. The problem, of course, is that things are not 
a whole lot better there for them because South Sudan doesn't 
have the capacity to care for these people. So they are in a 
no-win, they are in a no-win situation.
    And, then, finally, because the North never really created 
a media law that allows for a vibrant press, there is very 
little sunlight cast on what is going on there, and so much of 
the world, the EU and other parts of the world, really don't 
fully comprehend the extent of the repression.
    Mr. Payne. Thank you very much. Getting to the State 
Department, I understand that the State Department has labeled 
eight Countries of Particular Concern. In the report produced 
by USCIRF you identified an additional six. Is there any way 
you could determine what factors factor into the way that CPC 
looks at it as opposed to the State Department?
    Mr. Leo. Well, some of it, Mr. Payne, is institutional. I 
mean USCIRF's mandate is to look solely at religious freedom 
violations. So when we look at a country, you know, that is our 
single-minded focus by the terms of our statute. Obviously the 
State Department has to look, does look at a broad range of 
factors when it decides how to deal with a country.
    So even though, you know, oftentimes our findings and the 
State Department's on a country might be very similar in terms 
of religious freedom violations. They may make the 
determination that naming them a Country of Particular Concern 
or imposing certain sanctions is not going to have the intended 
effect on improving conditions. Now, we often disagree with 
that.
    So in the case of Pakistan, I suspect what the State 
Department would tell you is naming Pakistan a CPC will hurt 
rather than help. That will be their argument. We respectfully 
disagree. We believe that there is not going to ever be a 
perfect time to name Pakistan as a CPC, but that in fact we are 
at a point in Pakistan's cultural life where there are a 
sufficient number of imams and madrasas who believe in reform 
that naming Pakistan as a CPC and then being very strategic in 
terms of the way we dialogue about various kinds of reforms, we 
could actually help to embolden communities in Pakistan who 
could sort of start to move the ball in a positive direction.
    Similarly, what you have been told about a country like 
Vietnam is that there has been some progress made and we are 
having human rights dialogues with them. Again, we understand 
that argument, but we respectfully disagree. Our view of the 
history is that Vietnam has only responded and responded 
favorably when they have had a lot of pressure come to bear on 
them as a country.
    So to some extent it is institutional. You know, we look at 
one issue, they look at a basket. To some extent it is 
situational. You know, we sometimes gauge the cultural factors 
differently than the State Department does.
    Mr. Payne. Thank you very much. Since we are going to have 
votes, I agree that they tend to, even in dealing with Bashir, 
when I would be pushing for very hard sanctions they would say, 
well, you know, there are some other leaders in Sudan that 
could be worse, and so we have to be careful so it doesn't get 
worse. I agree, you know, I have never heard anyone being able 
to predict, or predict the unknown. I mean, you can't validate 
the unknown, you don't know what the next leader would be.
    So I have the same kind of problems with some of their 
findings that you probably have in your capacity. Thank you 
very much, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you very much, Mr. Payne.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and I had a couple 
of issues I wanted to cover with you, Mr. Leo. Again, thank you 
for being here.
    I wanted to really talk about the importance of interfaith 
dialogue. In Nigeria, there is a model program there, the 
mediation center, we have heard good reports about. I wanted to 
ask how important this interfaith dialogue is in promoting 
religious freedom. Number one, what is USCIRF doing to promote 
this and is there anything more that can be done?
    Mr. Leo. Thank you, Mr. Carnahan. Interfaith dialogue is 
obviously very important, and you mentioned Nigeria, where 
there has been an infrastructure for interfaith dialogue 
between the Muslim communities and the Christian communities 
there, oftentimes led by the Sultan of Sokoto and Archbishop of 
Uwe Akan of the Catholic Church and the Sultan of Northern 
Nigeria, a leading member of the Muslim community there.
    But, you know, in recent months and in the past year, we 
noticed in our trips to Nigeria, we have been there about four 
times in the past 2 years, that things are really starting to 
break down and the interfaith dialogue isn't working as well as 
it used to.
    And I think the reason that is the case is because you need 
to buttress interfaith dialogue with a strong set of 
enforcement mechanisms when extremists break the law. So in 
Nigeria the problem and, Mr. Payne, you mentioned Boko Haram, 
the problem in Nigeria right now is there that there are a 
bunch of extremist, Boko Haram among them, that are 
perpetrating an enormous amount of violence in the middle belt 
region of Nigeria. And the Nigerian Government is doing very 
little, if anything, to investigate, prosecute and bring to 
justice the people who perpetrate that violence.
    Well, what does that do? What it does is it breaks up that 
discussion at that interfaith table. Because suddenly, the 
people who have friends and relatives who have been killed and 
that no justice has been done to sort of, you know, punish the 
perpetrators of that violence, they don't want to talk anymore. 
They don't want to find common ground. They want vindication 
that what was done to their community is wrong.
    And so what I think in terms of what more can be done to 
bolster interfaith dialogue, first of all you have to find the 
kinds of talented leaders that Nigeria has, like the Sultan and 
the Archbishop, but then also the government has to be 
committed to enforcing the law when violence takes place or no 
one will sit down and dialogue. And we have seen that in 
country after country after country, although Nigeria in recent 
years has been the most, the most recent example.
    The U.S. has dedicated, I think, a significant amount of 
aid in various countries toward this dialogue. I think that is 
a good thing, Nigeria being one of them. But I think we need to 
probably combine that kind of aid with aid to train prosecutors 
and law enforcement officials about how to deal with the 
perpetration of religiously related violence in a way that is 
consistent with human rights.
    Mr. Carnahan. If we have time, Mr. Chairman, I will try to 
get one more in before we have to go vote. I wanted to ask 
about the role that the Internet and social media are playing 
either in a harmful way or a positive way within the context of 
religious freedom. Certainly we have seen it have a dramatic 
impact across the Middle East and North Africa during this Arab 
Spring, but in particular how are those tools being used in 
positive or negative ways to promote international religious 
freedom?
    Mr. Leo. There is no question that the Internet and social 
media has been very empowering for human rights defenders and 
religious minorities around the world. You have seen some of it 
in the Middle East, you see some of it in China and Vietnam and 
that is very, very important. So Internet freedom is a very 
important policy issue for the United States in this regard 
because it really does empower and bolster those human rights 
defenders and those people who want to defend religious 
minorities.
    But at the same time, Mr. Carnahan, the Internet and social 
media can be a tool used for violence and for evil. And so what 
we have seen in northern and sub-Saharan Africa, for example, 
is that the Internet has been a tool for the Taliban and other 
extremist groups to shift their ideology to groups and 
individuals in north and sub-Saharan Africa for example. Boko 
Haram, for example, gets a lot of its material off the 
Internet.
    When we met in Nigeria with the head of security services, 
they said that the Internet is probably the number one thing 
that sort of perpetuates the sort of violent extremism amongst 
members of Boko Haram. And that is the case in other countries, 
too. We see that in Indonesia where there are extremist 
elements that get a lot of extremist ideology through the 
Internet from Pakistan and Saudi Arabia. So it is a wonderful 
tool and resource for human rights defenders, but it can also 
be used for evil purposes. And so we need to probably 
complement our Internet freedom efforts with a campaign against 
the exportation of extremist ideology around the world.
    Mr. Carnahan. Thank you very much. I yield back.
    Mr. Smith of New Jersey. Thank you, Mr. Carnahan. Let me 
ask three final questions, and I will keep the record open even 
if we all have to leave here, and I would hope, Mr. Leo, you 
would answer the questions in full.
    With regard to India, Bishop Ramirez has made a very 
interesting point in his testimony that the State Department 
doesn't designate India as a CPC country, has no watch list. 
India is one of the few countries where USCIRF has not been 
able to arrange even a delegation visit despite several 
attempts to obtain visas. The failure seems to be particularly 
unusual in light of the fact that the U.S. entered into a 
strategic dialogue with India in 2009, and there have been 
several high-level visits exchanged. Religious freedom does not 
appear to have been a topic of discussion in this strategic 
dialogue.
    Secondly on Iraq, as the Bishop points out again, Bishop 
Ramirez, these are my words, we kind of own Iraq in a sense 
that we, by being involved in the war, which was opposed by the 
Church, there is a responsibility now, a heightened 
responsibility in the U.S. to ensure that the minority 
religions that are a millennium old go back to the founding of 
the Church, are facing extreme pressures, discrimination and 
murder. If you want to speak on Iraq, I would appreciate that.
    And finally, the Bishop makes another very important 
comment, many important comments, that there is little, too 
little public evidence, he writes, that protection of religious 
freedom is factored into major bilateral foreign policy 
decisions on a day-to-day basis.
    The strategic dialogues with several key countries seldom 
mentions religious freedom in public records of discussions. 
The issue may have been raised in private, but there needs to 
be a more overt recognition of the importance that the U.S. 
places on protection of religious freedom. Otherwise, it may 
appear that our Nation is going through the motions of 
satisfying a congressional mandate of not following up by 
making religious freedom an integral part of the foreign policy 
decision-making process.
    As you know, that is why we passed this law in the first 
place, because religious freedom was always relegated to the 
back of the talking points, if that. And if you could speak to 
that issue, if you would, because, you know, how many years 
after, since 1998, since enactment of this law, and we are 
still having this discussion where this has not been mainstream 
and made an integral part of our foreign policy.
    Mr. Leo. Well, His Excellency Bishop Ramirez is, as he 
always was as a commissioner of USCIRF, you know, spot on. 
These religious freedom issues are not adequately factored into 
our bilateral discussions and we are constantly pressing for 
those issues to sort of come to the surface and be higher 
priorities. That has especially been the case recently with a 
number of Southeast Asian countries where in the case of China 
and Vietnam, for example, we are just not seeing freedom of 
religion reach that level.
    My hope is that over time the IRF office and the IRF 
Ambassador can inflict more pressure within the State 
Department system to sort of try to make those issues a higher 
priority. We have hopes that Vice President Biden, in his 
upcoming visit to Turkey--I think he is leaving very soon--will 
engage the Turks on the issue of freedom of religion and 
particularly the reopening of the Halki Seminary.
    So I think having the Vice President engaged in that way 
would send a very, very strong signal to the bureaus in the 
State Department that religious freedom needs to be critical on 
a bilateral basis.
    You mentioned India and Iraq, very different countries in a 
lot of ways, you know, but the one common element there is 
impunity. And what you see in India and in Iraq is just a 
situation where, you know, there needs to be as much as 
possible an effort to prosecute religiously related violence. 
Obviously the situation is very different in India, where there 
have been investigations and prosecutions. The question is the 
extent and speed, and that is something we are looking into and 
trying to engage with the Indian Government on.
    The situation in Iraq is much worse. I mean there, there is 
almost a total breakdown in prosecution of religiously related 
violence and it is causing the extinction of the Christian 
community in that country.
    Mr. Turner [presiding]. If I may, another question on--if 
we can get back to Pakistan for a moment. I might catch my 
breath. The madrassases. I understand there is funding from 
Saudi Arabia. Do you feel that has an impact? And does our own 
foreign aid, which is probably not used as leverage, kind of 
counter it; are we doing what we can and should?
    Mr. Leo. First of all, there is no question that the Saudis 
are responsible for the exportation of an enormous amount of 
extremist ideology. Their textbooks and educational materials 
have not been reformed as they should be. They speak of 
spilling the blood of the infidel. That is Christians and Jews. 
There are a lot of other very concerning passages throughout 
their materials.
    When we visited Saudi Arabia recently and met with the 
Minister of Religious Affairs, we were not satisfied with the 
responses he or the Administrator of Education gave in terms of 
the extent to which they are trying to clean up their 
educational and other materials. But the bottom line is because 
Saudi Arabia is, if you will, the Vatican of Islam. Their 
educational materials serve as the basis for a lot of education 
elsewhere in the world. So they are exporting a brand of 
extremism often which is very toxic.
    And we have seen that in Pakistan, Mr. Turner, with a 
number of the madrassases where there are a lot of pejorative 
commentaries about Hindus and about Christians and about Jews. 
And that is helping to perpetuate some very negative 
stereotypes amongst the young people in Pakistan, which breeds 
violence. I mean, Pakistan is a little bit more complicated 
than that, though, in the sense that there are some madrassases 
in Pakistan--we were talking about this earlier--that do want 
to reform their curriculum. This is, I think, due in part to 
the fabulous work that was done by the late Shahbaz Bhatti, the 
Minister of Minority Affairs who was violently assassinated on 
his way to his first cabinet meeting. He brought together quite 
a number of imams in and around Islamabad and Pakistan who 
wanted to see reform. They control some of those madrassases 
and others. And some of those madrassases do want to reform 
their curricula, but that is going to require new rules and 
laws that could be handed down by the Interior Ministry in 
Pakistan. And they haven't done that. Until they do that, those 
who do want to reform their curricula within the madrassases 
won't be able to.
    Now, our hope is that if we can get the Pakistani 
Government to change those rules, that some of these 
madrassases can actually change their curricula, that will 
begin to put valuable competitive pressure on other madrassases 
and, by extension, public schools in Pakistan so that some of 
them will begin to think about whether they should be changing 
their curricula as well. There are signs of hope here.
    There are some young people and there are some teachers who 
want to reform education in Pakistan, who are more broad-minded 
about the role that minorities play in their country. But a lot 
of work has to be done and that is going to require both the 
Pakistani Government to change some of its rules and, frankly, 
on a global scale, the Saudis to begin to take more seriously 
their obligation to clean up their own educational materials 
which do get pushed around all over the world, including here 
in the United States at the Islamic Saudi Academy just across 
the river in Fairfax.
    Mr. Turner. As far as United States leverage is concerned, 
are we exercising that properly? Are we exercising it at all 
with both the Saudis and with Pakistan?
    Mr. Leo. The Commission's position is that we are not 
exercising our leverage sufficiently. In the case of Saudi 
Arabia, though, we have named Saudi Arabia as a Country of 
Particular Concern for years. Years. We have had an indefinite 
Presidential waiver on any sanctions. The Commission's position 
is that basically there should be a time period within which 
that Presidential waiver remains, but that if certain reforms 
are not achieved within that time period, the waiver ceases to 
exist and sanctions begin to come down hard on the Saudi 
Government.
    Where they really need reforms are in terms of their 
educational material, in terms of their religious beliefs and a 
couple of other things under Saudi law.
    With regard to Pakistan, I would say the same thing. You 
know, there is never going to be, as we said before, never 
going to be a good time to name Pakistan or any other country 
as a CPC. But the bottom line is that in our view, now is the 
time to name them as a CPC. Conditions are worsening. The 
blasphemy law is being applied in terrible ways. There are over 
100 individuals, and we can supply you with a chart, there are 
over 100 individuals, Christians, nonconforming Muslims, 
Hindus, who are imprisoned under their blasphemy law. And that, 
by the way, breeds enormous violence and hostility in the 
country, and the United States is doing nothing to really sort 
of try to put pressure on the Pakistanis to try to change that.
    Mr. Turner. The final question. You noted in your testimony 
that a political issue in the Senate, unrelated to the 
Commission, is holding up the Commission's reauthorization, 
which technically expired in September, although the continuing 
resolution is providing temporary funding for the Commission 
and we hope another CR is passed tomorrow, and that will take 
the Commission at least through December. The failure of the 
Senate to pass USCIRF's reauthorization is extremely 
problematic. Could you tell us how it is affecting your 
operation?
    Mr. Leo. Well, it is very hard for the Commission to do any 
long-range planning when we are not sure of our continued 
existence. And when we live from CR to CR--in a way it is 
different from most other Federal agencies, because we are not 
an executive branch agency that has the benefit of longevity. 
So basically we have had a very hard time mapping out a longer-
range agenda. There have been a number of missed opportunities 
in terms of putting pressure on various countries. But, you 
know, our hope is that the Senate will act on a piece of free-
standing legislation that is at the Senate desk right now. We 
are hoping it gets done this week and that that legislation 
gets sent here to the House and we can resolve this issue, you 
know, before long. It should have happened over a month ago, 
but it didn't.
    Mr. Turner. Indeed. Thank you. Thank you for your 
testimony, Mr. Leo.
    And at this point, we would like to seat--call the second 
panel. And again we thank you.
    We have Bishop Ricardo Ramirez. Bishop Ricardo Ramirez is a 
Catholic Bishop of the Diocese of Las Cruces, New Mexico. He 
served as a commissioner in the U.S. Commission on 
International Religious Freedom from 2003 to 2006. Bishop 
Ramirez was ordained to the episcopacy in 1981 and has lived in 
Canada, Mexico and the Philippines. He is a member of the 
International Justice and Peace Commission within the United 
States Conference of Catholic Bishops.
    Mr. Benedict Rogers of the Christian Solidarity Worldwide. 
Mr. Rogers is the East Asia team leader for Christian 
Solidarity Worldwide. Mr. Rogers specializes in human rights in 
Burma, Indonesia, and North Korea and oversees CSW's work in 
China, Vietnam, and Laos. He has traveled extensively in the 
region and regularly publishes articles and books about human 
rights in these countries. Mr. Rogers serves as the deputy 
chairman of the Conservative Party Human Rights Commission in 
the UK. And in 2005, he served as special advisor to the 
Special Representative of the Foreign and Commonwealth Office 
Freedom of Religion panel.
    We have Reverend Majed El Shafie. How is that, bad?
    Rev. El Shafie. Very bad. But that is okay.
    Mr. Turner. Very bad. Okay. Would you please say it for me? 
Majed El Shafie.
    Rev. El Shafie. Majed El Shafie. You did a good job. Thank 
you.
    Mr. Turner. A little better. All right. Well, thank you. 
From One World International, Reverend El Shafie is the 
President and founder of the One Free World International, a 
human rights NGO dedicated to securing the rights of religious 
minorities around the world. The reverend is both an ordained 
minister and an Egyptian lawyer by training. After converting 
from Islam to Christianity, Reverend El Shafie was arrested by 
the Mubarak regime in 1998, tortured and sentenced to death. He 
escaped, fled to Israel and finally settled in Canada in 2002. 
He has been interviewed by numerous media outlets and has 
advised the Canadian Government on religious freedom issues. 
Thank you.
    And finally we have Mr. R. Drew Smith, Center for Church 
and Black Experience of the Garrett Evangelical Theological 
Seminary. Dr. Smith is the director of the Center for the 
Church and the Black Experience at Garrett Evangelical 
Theological Seminary in Evanston, Illinois. He is also scholar 
in residence at the Leadership Center at Morehouse College in 
Atlanta, Georgia. Dr. Smith has taught at several major 
institutions of higher education and has traveled widely in 
Latin America and Africa. He served as a Fulbright professor in 
South Africa in 2005 and as a Fulbright senior specialist in 
Cameroon, and has lectured in Brazil, Ghana, Lesotho and 
Israel. He has published widely on religious and public life, 
including numerous articles and book chapters. Thank you very 
much.
    Bishop Ramirez, would you please open and proceed?

   STATEMENT OF FR. RICARDO RAMIREZ, BISHOP, DIOCESE OF LAS 
 CRUCES, FORMER COMMISSIONER, U.S. COMMISSION ON INTERNATIONAL 
                       RELIGIOUS FREEDOM

    Bishop Ramirez. Mr. Chairman and members of the 
subcommittee, thank you for advising the U.S. Conference of 
Catholic Bishops to offer testimony under the protection of 
religious freedom.
    Mr. Chairman, we appreciate your leadership on this issue. 
I am, as you said, Ricardo Ramirez, the Bishop of Las Cruces. I 
currently serve on the Committee of International Justice and 
Peace of our Bishops Conference. I also had the honor and pride 
of serving on the U.S. Commission on International Religious 
Freedom from 2003 to 2007. I will summarize our testimony and 
ask that the full written testimony be entered into the record.
    Mr. Smith of New Jersey [presiding]. Without objection, 
yours and those of all who would like to submit their 
testimonies will be made a part of the record, as well as any 
extraneous materials you would like to add.
    Bishop Ramirez. Thank you, Mr. Chairman. According to the 
Catholic teaching, religious freedom rooted in the dignity of 
the human person is a cornerstone of the structure of human 
rights and is closely tied to freedoms of speech, association 
and assembly. Religious freedom is not solely freedom from 
coercion in matters of personal faith, it is also freedom to 
practice the faith individually and communally in private and 
public.
    Freedom of religion extends beyond freedom of worship. It 
includes the freedom of the Church and religious organizations 
to provide education, health, and other social services, as 
well as to allow religiously motivated individuals and 
communities to participate in public policy debates and thus 
contribute to the common good.
    Unfortunately, as has been mentioned before today, 
religious freedom is under attack in many countries around the 
world. In China, the police crack down on the faithful who 
simply want a place to worship. In Egypt, extremists burn 
churches, and Christians are persecuted in Eritrea, Baha'is in 
Iran, Ahmadiyyas in Indonesia, and Christians and Muslims in 
Uzbekistan. The New Year's Day bombing of a Coptic church in 
Egypt, the Christmas Eve bombings of churches in Nigeria, and 
the October 2010 attack on the Syrian Catholic Church in 
Baghdad are grim reminders of what is at stake.
    While the annual State Department's International Religious 
Freedom Report for 2010 is commendable and fairly thorough, let 
me offer brief comments on a few countries. Our staff met on 
several occasions with Shahbaz Bhatti, the Pakistani Minister 
for Minority Affairs who was assassinated in March 2011. This 
followed the January 2011 assassination of Punjab Governor 
Salman Tasser, a Muslim. Both were targeted because of their 
support for changes in blasphemy laws that are often used to 
justify acts against religious minorities. Our Bishops 
Conference asked the Department of State to consider whether 
these assassinations and other issues warrant designating 
Pakistan as a Country of Particular Concern next year. The 
State Department report documents a number of abuses of 
religious freedom in India; however, there are undoubtedly 
other instances not documented.
    Our staff visited India in March 2010 to look into the 2008 
attacks of Christians in the State of Orissa. While the report 
does refer to the incident, there is no mention, as you said, 
Mr. Chairman, of the ongoing suffering experienced by Christian 
villagers whose homes and livelihoods were destroyed. Many 
remain displaced, fearful of returning to their homes. The 
State Department report on forced conversions makes scant 
mention of Christians being forced to convert to Hinduism in 
order to return to their villages. The U.S. entered into a 
strategic dialogue with India in 2009, but religious freedom 
does not appear to have been a topic for discussion.
    This October, two of our bishops made a pastoral visit to 
Baghdad. The ancient Christian communities in Iraq have been 
decimated. The State Department report does not highlight the 
fact that high levels of violence have led to a 
disproportionate number of Christians, many professionals, 
fleeing abroad as refugees are being displaced internally.
    As the U.S. withdraws, we must work with Iraqis to improve 
the rule of law, security and economic opportunity. We must 
also help refugees and internally displaced persons. This will 
require continued U.S. international assistance.
    We have several recommendations. First, the Congress and 
the administration need to place a higher priority on religious 
freedom. There is too little public evidence that protection of 
religious freedom is factored into major bilateral foreign 
policy decisions.
    Second, the State Department needs to give greater 
consideration to designating countries of particular concern. 
The Commission on International Religious Freedom's list is 
longer, adding other countries such as Iraq, Pakistan, Nigeria, 
and Turkmenistan. USCIRF also maintains a watch list of 
countries where trends indicate the predisposition toward 
severe violations of religious freedom. Countries on USCIRF's 
Watch List change from year to year. We are concerned that the 
State Department list may not adequately reflect changing 
conditions.
    Third, the President and the Secretary of State should 
consider more closely actions that might be applied to those 
states where particularly these severe violations of religious 
freedom occur.
    Fourth and finally, the Senate should move to reauthorize 
the U.S. Commission on International Religious Freedom whose 
mandate expires tomorrow. It would be tragic if this vital 
institution were to cease its promotion of religious freedom 
around the world.
    Let me close by commending the distinguished members of the 
subcommittee for holding this hearing and for raising the 
profile of religious freedom in our Nation's conscience and in 
its foreign policy. Thank you.
    Mr. Smith of New Jersey. Thank you very, very much, Bishop 
Ramirez, for your testimony and for your leadership and that of 
the Catholic Bishops Conference.
    [The prepared statement of Bishop Ramirez follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. And I would like to now ask, Mr. 
Rogers, if you could present your testimony.

   STATEMENT OF MR. BENEDICT ROGERS, EAST ASIA TEAM LEADER, 
                 CHRISTIAN SOLIDARITY WORLDWIDE

    Mr. Rogers. Chairman Smith, distinguished members of the 
committee, first of all may I thank you very much indeed for 
this opportunity to submit evidence to this very important and 
timely hearing. And thank you also for your leadership and many 
years of dedicated hard work on behalf of those who are 
persecuted for their faith.
    With permission, I will focus on the countries for which I 
am responsible; namely, Burma, China, Indonesia, North Korea, 
and Vietnam. And I will attempt to do so in just as many 
minutes.
    Let me start first with Burma. Many Buddhist monks, 
including U Gambira, a very prominent monk, remain in prison. 
The plight of the Muslim Rohingya people remains unchanged. In 
the predominately Christian Kachin state, which I have visited 
several times, the regime has launched a new military 
offensive, resulting in very grave human rights violations, 
including attacks on churches and new restrictions on religious 
freedom. There is some talk of change in Burma. However, as 
long as the regime holds Buddhist monks and other prisoners of 
conscience in jail, attacks civilians in the ethnic states, and 
violates religious freedom, the United States should maintain 
pressure on the regime and redesignate Burma a CPC.
    Briefly, Indonesia. In July, the European Parliament passed 
a resolution expressing grave concern at the incidence of 
violence against religious minorities. A similar resolution 
from this Congress would be very welcome. In May, four 
Ahmadiyya Muslims traumatized, terrorized and stigmatized, sat 
in a Jakarta apartment and described to me how they were almost 
killed by an extremist mob. One man had been stripped naked, 
beaten to a pulp and a machete held at his throat. Another fled 
into a fast-flowing river pursued by attackers throwing rocks 
and shouting kill, kill, kill. Churches are also coming under 
increasing pressure in Indonesia. This year alone so far, at 
least 30 churches have been attacked. There are serious 
concerns over the rule of law in Indonesia, and I have detailed 
these concerns in my written submission.
    But I would like to draw your particular attention to the 
case of the GKI Yasmin church in Bogor, which I visited just a 
few weeks ago. Increasing intolerance toward religious 
minorities poses significant challenges to Indonesia's 
tradition of religious freedom. The failure of the government 
to protect minorities and uphold the rule of law has encouraged 
extremists. I hope that when President Obama visits Indonesia 
in the next few days, he will appeal to the President of 
Indonesia to uphold religious freedom and the rule of law.
    I turn now to North Korea. I visited North Korea in October 
last year with two British Parliamentarians, Lord Alton and 
Baroness Cox. North Korea is clearly one of the worst violators 
of human rights, including religious freedom, in the world. An 
estimated 200,000 people, some of them Christians, are trapped 
in a brutal system of political prison camps. Just a few days 
ago, I received from a trusted source a story of a young female 
North Korean teenager who had engaged in evangelism which was 
eventually discovered by the regime. She was executed. Where 
else in the world are teenagers, minors who share their faith, 
executed for doing so? Alarmingly, the reach of the North 
Korean regime's brutality extends even beyond its borders, 
involving assassinations or attempted assassinations of South 
Korean Christian missionaries working with North Korean 
refugees.
    Earlier this year, CSW, along with 40 other organizations, 
launched an international coalition to stop crimes against 
humanity in North Korea. And we believe that these violations, 
including violations of religious freedom, do amount to crimes 
against humanity, that it is time that impunity in North Korea 
be ended, crimes investigated, and Kim Jong Il's regime brought 
to account.
    As you said, Mr. Chairman, religious freedom in China has 
severely deteriorated. A widely publicized case is that of the 
Shouwang church in Beijing, which has faced continual pressure 
to stop meeting. They have been denied access to their building 
and have been meeting outdoors, facing arrest and detention. 
Pastor Shi Enhao was arrested in May of this year and sentenced 
to 2 years reeducation through labor. Alimujiang Yimiti, a 
Christian Uyghur from Xinjiang, was sentenced in 2009 to 15 
years in prison, the harshest sentence in a decade for a 
Christian. Finding a lawyer to represent such cases is 
increasingly difficult. Lawyers increasingly face intense 
pressure from the authorities.
    One lawyer, Dr. Fan Yafeng, has been under house arrest 
since December 2010. Another lawyer, Gao Zhisheng, disappeared 
and has not been heard of since April of last year. China is 
now considering amending the criminal procedure law to 
effectively legalize forced disappearance. Currently there is 
no basis for house arrest under Chinese law, but these 
amendments would legalize this and allow police to hold 
individuals in secret locations without informing their 
families. China should certainly remain a CPC.
    Following the removal of Vietnam from the CPC list in 2006, 
the religious freedom situation has indeed deteriorated, as 
other speakers have said. Several Christians remain in jail. 
These include the Catholic priest, Father Ly, and two 
Protestant lawyers. Father Ly remains in extremely poor health 
and has been returned to prison after medical parole. A U.S. 
diplomat who tried to visit him earlier this year was 
physically harassed.
    Some of the most severe violations affects ethnic 
minorities. In September this year, 11 protestant families in 
the Dien Bien province were forced to renounce their faith. A 
major impediment to religious freedom in Vietnam is the 
registration system. Vietnam should be urged to redraft 
legislation to update Decree 22 to ensure the recognition of 
denominations and congregations continues.
    Mr. Chairman, in conclusion, of these five countries, three 
are listed as Countries of Particular Concern. One is a former 
Country of Particular Concern that, as others have said, ought 
not to have been removed from that list and ought to be 
returned. And one is the world's largest Muslim majority 
country, the third largest democracy with, until recently, a 
great tradition of pluralism and a successful transition to 
democracy, which nevertheless shows worrying signs of failing 
to face challenges to religious freedom and the rule of law. 
There is therefore much work for all of us who are concerned 
about freedom of religion or belief in the East Asia region 
still to do.
    I want to express my appreciation to the U.S. Commission 
for its work, and I hope very much it is able to continue its 
work. And I welcome and appreciate this committee's efforts as 
well. Thank you.
    Mr. Smith of New Jersey. Mr. Rogers, thank you so very 
much.
    As a matter of fact, on your last point, a mere matter of 
lifting a hold that Senator Durbin and apparently one other 
Senator has on the reauthorization of the Commission would 
bring it to the floor and it would pass, I believe, unanimously 
in the Senate. So there is only one obstruction and the hope is 
that that obstruction which is totally unrelated, we are told, 
to religious freedom be lifted.
    You know, the Senate, as you know, has arcane rules that 
allows one Member to throw a monkey wrench into the process 
which is archaic, and most outsiders can't believe the U.S. 
Senate operates under those rules. But Senator Durbin has a 
hold on that bill. We hope that he lifts it. It would be 
totally unjust if he allows this Commission to expire.
    [The prepared statement of Mr. Rogers follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. I would like to now have Reverend 
El Shafie, if you could proceed.

 STATEMENT OF REV. MAJED EL SHAFIE, PRESIDENT AND FOUNDER, ONE 
                    FREE WORLD INTERNATIONAL

    Rev. El Shafie. Thank you, Chairman Smith. And I would like 
to thank as well Ranking Member Donald Payne, and I would like 
to thank Mr. Turner and the rest of the members and the 
staffers, thank you so much for your hard work. Mr. Chair, I 
will ask my full written statement to be included in the 
record, please, if possible.
    Mr. Smith of New Jersey. Without objection, so ordered.
    Rev. El Shafie. Thank you.
    One Free World International is a human rights organization 
based in Toronto, Canada. We have 28 branches around the world. 
Most of our branches operate as intelligence branches, which 
means that we collect information about the persecution that is 
happening to the minorities. We deal with many minorities, we 
help many minorities--Christians, Falun Gongs, Uyghurs, 
Baha'is, Ahmadiyya and many more--and as well we stood against 
the rising of anti-Semitism in many countries.
    After fact-finding missions that I took personally, we 
confronted many governments. And usually in our delegation to 
meet with many governments such as the Government of Iraq and 
Pakistan and Afghanistan, we were accompanied by a Canadian 
Member of Parliament and Canadian Senators.
    Today I will be speaking specifically about two countries, 
which are Egypt and Iraq. And I will be just briefly will be 
talking about the situation in Pakistan and Afghanistan.
    After the so-called Arab Spring--and I have no idea who 
called it Arab Spring--today the world is waking up to find it 
is not Arab Spring, it is a cold, deadly winter on the 
minorities in the Middle East.
    If we talk about Egypt, since the starting of the 
revolution in January 25 until now, there are 12 attacks on the 
Christian Coptic minorities in Egypt. These 12 attacks are the 
major attacks. According to our sources on the ground, there 
are more than 36 attacks. But the ones that we are aware of are 
the major attacks.
    Now, if I spoke specifically about one specific attack that 
was on October 9th, the massacre of Maspero. Now, if we track a 
little bit before October 9, in September 30, there is over 
3,000 Muslim extremist mobs that they attack a church in Aswan; 
after these attacks in October 9, the Christian Egyptian 
community went into demonstration, a peaceful demonstration--I 
repeat, a peaceful demonstration--in Maspero and Cairo. The 
Egyptian military responded back by firing live ammunition on 
the demonstrators, armed cars and the tanks run over the 
people. Basically over 26 people were killed, 300 were wounded. 
Not only that, but basically the Muslim hospitals in Cairo 
refused to receive the 300 wounded. Only one hospital accepted 
to receive the Muslim. It was the Coptic hospital in Cairo. 
After that, the Egyptian police arrested some of the wounded 
from this hospital and until now they are prisoners in the 
Egyptian prison.
    All that we are seeing right now, according to our 
sources--this is just some of the pictures that we basically--
from the demonstration. Mr. Chair, after that on October 16th, 
5 days, a young man by the name of Ayman Labib, 17 years old, 
was asked to remove--he is a student in the school. He was 
asked to remove his cross. When he refused, his teacher and a 
student beat him to death.
    Just yesterday, on the remember day of October 9th, 40 days 
of the memory yesterday, over 30 people were hurt trying again 
to demonstrate in Maspero. This happened just yesterday.
    We talk about Iraq. I visited Iraq 2 months ago. In my 
visit to Iraq, I was accompanied by one Member of the Canadian 
Parliament, Mr. John Weston, and one Member of the Canadian 
Senate, Don Murdoch, as observants in my mission. And they were 
part of my delegation. I was able to visit with the Vice Prime 
Minister of Iraq, the Vice President, the Deputy Prime 
Minister, the Minister of Human Rights in Iraq.
    By the way, in any country, if you found a Minister for 
Human Rights, that means that they have no human rights at all. 
It is a ruse, more or less.
    So the difficult part that I found in Iraq is the massacre 
that is facing the minorities. Not just the Christians, but the 
minorities in general. Right now the Christians in Iraq--half 
of the Christians in Iraq was forced to leave or was killed. 
This is a massacre. This is a genocide. This is not just ethnic 
cleansing. This is a genocide when you are forcing half the 
community to be killed or to leave your land.
    And I visited a church by the name of Our Lady of 
Salvation. It is a Catholic church that on October of last year 
was attacked by five terrorists. They entered the church and 
over 54 people were killed. Four hours that Iraqi police did 
not interfere to save these people's lives, 4 hours. I met with 
some of the victims.
    Mr. Chair, what I am holding here is the bullets from the 
bombs and the shooting that took place in Our Lady of 
Salvation. Some of them still have blood from the victims. When 
the police entered after 4 hours into Our Lady of Salvation, 
the police did not--I repeat, the Iraqi police did not help the 
wounded. The opposite. They started to take the gold and the 
money from the pockets of the victims. And I have an eyewitness 
and I spoke with a priest of Our Lady of Salvation.
    And not only the Christians are facing persecution. I will 
mention as well the Sabean Mandaeans and the Yezidis. The 
Sabean Mandaeans, there were 50- to 60,000 in the country. Now 
there are 3,500 to 7,000 of them. The solution--and I know that 
I have 5 minutes. The solution--thank you, Mr. Chair. If you 
read my written statement, there are many solutions that we 
propose. But because of time, I will just focus on one of them, 
connecting the American aid and the international trade with 
improvement of the human rights situation record in these 
countries. I don't know until when we will keep giving them 
blank checks. I don't know until when we will keep giving the 
American people money to the people that goes over these 
crimes. This is not the government money. This is the American 
people money.
    Right now, in October 10, the Secretary of State, Hillary 
Clinton, she indicated that they will continue supporting the 
Egyptian military. Now, the United States, they give $1.9 
billion to $2 billion to Egypt; 1.3 of that is military aid. 
And she said--and this was written in the Web site of the State 
Department--that they will continue supporting the military. 
This is the military that killed innocents, who killed the 
minority.
    The Iraqi Government is asking for $2 billion for security 
sanctions and the United States is--according to the media, 
that they are willing to give them this money. The State 
Department in October of 11th, the day after--after the 
massacre, she had the phone call with Mohamed Kamel, the 
Foreign Affairs Minister of Egypt, and she supported him or she 
encouraged an investigation that is made by the army. Now, can 
you explain to me how come the army can investigate themselves 
if they are the criminals?
    And here, the White House press secretary, Jay Carney, he 
issued a statement that the President is deeply concerned about 
the violence in Egypt that led to the tragic loss of life among 
the demonstrators and the security forces. The American 
President is concerned? It was a massacre. Concerning is not 
really--did anything to the people on the ground. And at the 
same time, they said that he feels the tragic loss--he feels 
sorry for the tragic loss of life among demonstrators and 
security forces. You make them equal. When you put the 
demonstrators and the security forces that were firing on them, 
you make them equal. You make both of them victims. No. One is 
the persecuted and one is the persecutors. Do not give them the 
same moral equality in your press release.
    Mr. Chair, forgive me for taking very long time from you. 
In closing, Mr. Chair, the reason that I am very passionate, I 
am not just the head of my organization or NGO, I used to be a 
prisoner. Until now, if I took off my jacket, you would find 
scars on my body. Until now I have nightmares in the night from 
the torture that I suffered. But, Mr. Chair, there is only one 
thing that I know in the middle of all of this. I know that the 
persecuted people that believe in faith are dying, but they 
still are smiling. It is a very deep dark night, but they still 
have the candle of hope. I know by fact that our enemy, the 
enemy of democracy and freedom, have very strong army, have 
very strong weapon, but we have the Lord Almighty. I know for a 
fact that they can always kill the dreamer, but no one can kill 
the dream. Thank you, Mr. Chair.
    Mr. Smith of New Jersey. Mr. El Shafie, thank you, 
Reverend, for that very powerful testimony.
    [The prepared statement of Reverend Majed El Shafie 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Smith of New Jersey. I would like to now yield to Dr. 
Smith.

   STATEMENT OF R. DREW SMITH, PH.D., SCHOLAR-IN-RESIDENCE, 
              LEADERSHIP CENTER, MOREHOUSE COLLEGE

    Mr. Smith. Thank you, Mr. Chairman and Ranking Member 
Payne, distinguished members of the committee. I am honored to 
be asked to bring perspective on the important matter of 
religious freedom, especially as it relates to the sub-Saharan 
Africa context. I appreciate the very important and vital work 
that has been done by this committee and by the State 
Department and the Commission on this very important topic. I 
would like to summarize and ask that the written testimony be 
included in the record.
    Mr. Smith of New Jersey. Without objection, so ordered.
    Mr. Smith. The first thing I would like to say, Mr. 
Chairman, is that I would like to draw attention to a broader 
range of government intimidation and coercion of the religious 
sector, which is really on a less severe scale than many of the 
countries that are designated as CPC countries. But religious 
repression exists in multiple African countries where civil and 
political freedoms have been significantly constricted in 
general. And I would like to suggest that some of these cases 
may help to ground the U.S. discussion on religious freedom in 
slightly broader perspective, not to take anything away from 
the urgency of the cases that have been legitimately at the 
center of the discussion. But I believe that the issue of 
religious freedom transcends some of the ways that it typically 
is discussed in official circles.
    One example from the African context is Zimbabwe, ruled by 
Robert Mugabe for 31 years. Mr. Mugabe's repressive response to 
challenges to his continued rule have been well documented. But 
less well known has been his targeting of the religious 
community. Especially during the past several years, the Mugabe 
regime has unleashed violence on church persons or intimidated 
them by other means for being insufficiently supportive of his 
leadership and his ZANU-PF political party, or because they 
supported the leadership of his political rival, Morgan 
Tsvangirai who has been in a power-sharing arrangement with 
Mugabe since 2009. For example, persons affiliated with the 
Johane Masowe Apostolic Church, one of Zimbabwe's largest 
denominations at roughly 1 million members, have been murdered, 
tortured, assaulted or arrested primarily because of their 
political inclinations and disinclinations.
    One church leader, a prophet, Patric of Machaya, was 
purportedly killed for not allowing access to his church for 
campaign meetings by ZANU-PF. Two other church members were 
beaten to death in 2008, including the son of a church leader. 
The homestead of a church leader, Prophet Obey Mapuranga, was 
burned down for supporting Tsvangirai's MDC political party. 
Another church leader, Prophet Wainege, was beaten, tortured, 
and his home burned down for supporting the MDC party. Yet 
another church leader, Apostle Harrison Chimutsimhu was beaten 
and tortured for attending church on Friday rather than ZANU-PF 
campaign meetings.
    There are also quite a few additional incidents reported of 
church members who were beaten, tortured, or detained for 
presumed disloyalty to ZANU-PF.
    Mugabe's demands for allegiance have been forcefully 
imposed on other churches and church leaders as well. A 
Catholic priest was arrested in April 2011 for holding a 
memorial service in remembrance of 20,000 Zimbabweans from the 
Ndebele ethnic group, massacred by Mugabe's troops shortly 
after he came to power in 1980. The priest was charged with 
``communicating false statements against the state'' by 
referring to the killings and stirring ``offense to a 
particular tribe.''
    In another 2011 incident, police in Harare used tear gas to 
disperse groups of churchpersons gathered for a peace vigil. 
Thirteen of the worshipers were arrested, including four 
clergymen, on charges related to fomenting public violence.
    But there has been a particularly systematic effort to 
politically reorient if not expel the majority of the Anglican 
Church in Zimbabwe, a church that has been a consistent 
promoter of political reform. When the former head of the 
Anglican Church in Zimbabwe, a pro-Mugabe bishop named Nolbert 
Kunonga was excommunicated by the church in 2007 for inciting 
violence through his sermons, he and his followers took over 
the main cathedral, the church's bank accounts and dozens of 
Anglican schools and properties with the help of Mugabe's 
police force.
    Meanwhile, it is reported that the Anglican majority in 
Zimbabwe are being prevented by Bishop Kunonga and his 
followers, with the assistance from the police, from accessing 
many of their church buildings in various parts of the country. 
Where access to church buildings may still exist, priests and 
church leaders have been arrested with some regularity and held 
in jail over weekends so as to prevent them from holding 
worship services. Anglican bishops have received death threats. 
An elderly Anglican member was found murdered after repeatedly 
refusing demands to join Bishop Kunonga's church.
    The result of these repressive measures is that many 
Anglican churches lie empty on Sundays. These and other 
intimidation attacks were reported in the media and itemized, 
and a report delivered to Mr. Mugabe in October 2011 by the 
Archbishop of Canterbury, Rowan Williams, who traveled to 
Zimbabwe for an urgent meeting with Mr. Mugabe.
    Another country where the government has curtailed 
religious freedom through intimidation and coercion is 
Cameroon, a country ruled by the same President, Paul Biya, for 
29 years. The country engages in periodic multiparty elections 
and has a Constitution that enshrines civil liberties and 
religious freedom; nevertheless, the power of Biya's regime is 
essentially without challenge and the regime's capacity for 
manipulating or cowing opposition is extensive.
    The religious sector has not been especially politicized 
within post-colonial Cameroon, but in recent decades there has 
been a cadre of religious leaders that have openly criticized 
the Biya regime for policies and practices that continue to 
mire the country in poverty, especially the Anglophone 
population, as well as in a culture of corruption. One of the 
most consistent critics has been Christian Tumi, a Roman 
Catholic cardinal whose outspokenness has sometimes encouraged 
other Catholic leaders to speak out though apparently not 
without consequences. Cardinal Tumi has endured death threats, 
government surveillance and the Catholic radio station--
Catholic Radio Veritas was banned. Also in the last 25 years, a 
number of Catholic religious leaders have been killed in 
Cameroon under suspicious circumstances. I itemized the names 
and the locations of these Catholic leaders that includes seven 
priests, two nuns and one Archbishop. Pope John Paul II in 1995 
asked the Cameroonian Government to investigate these unsolved 
deaths of Catholic clergy and religious leaders, but his 
request did not produce results. Nevertheless, according to a 
2009 report on challenges faced by churches in Cameroon, 
``Catholics are broadly convinced these killings were an effort 
to intimidate the Church to keep it out of politics.'' As 
startling as the killings are, the numbers still pale in 
comparison to the scale of religious violence in countries such 
as Sudan, Eritrea and Nigeria which partly explains why 
Cameroon and countries like it have not received as much 
attention in discussion on religious freedom. What also 
explains Cameroon's omission is the difficulty of seeing past 
constitutional and governmental declarations of religious 
freedom to the actual constrictions and constraints endured by 
religious communities on the ground. Let me skip, Mr. Chairman, 
to a second point that I really want to make in the remarks, 
which we can--and we can return to the other point in a 
question and answer session. I would like to suggest that there 
are a number of factors, including social inequality, 
interethnic grievances and governmental manipulation that 
contribute to religious conflicts and demand attention in 
efforts to resolve these conflicts. Religion features 
prominently and religiously explicit forms of mediation I think 
are very much required in trying to mediate these. So the 
second point I would like to make is to emphasize the important 
role interdenominational and interfaith organizations should 
increasingly play in mediating these conflicts. The All-Africa 
Conference of Churches is an ecclesiastical network extending 
across sub-Saharan Africa that is developing ever stronger 
partnerships with national and regional council of churches and 
with the African Union on social development matters, but also 
on peacemaking, which is its primary objective, especially in 
Sudan, the Great Lakes and the Horn of Africa. Also, each 
region in Africa has a regional fellowship of Christian 
councils and churches. And there are at least two regional 
interfaith networks in Africa. Both of those are located in 
East Africa. Moreover, national church councils and interfaith 
councils exist in many African countries, including Sudan, 
Nigeria and Eritrea. Although the impact of these various types 
of councils on conflict resolution has been debated and the 
impartiality and diplomatic skill sets of religious leaders 
questioned at times, some of these councils have been very 
strategic to mediation and peacemaking. These religious 
councils have demonstrated a number of significant strengths 
that uniquely position them for effective mediation and 
peacemaking, including extensive deep rooted relationships with 
localized constituencies in situations where there oftentimes 
is a scarcity of local civil society infrastructure, 
capabilities to reach beyond culturally confined localisms and 
politically constricted local context so as to facilitate 
broader collaborative platforms for expression and action. And 
thirdly, an ability to speak to religious struggles with the 
religious authority that comes from theologically and 
ecclesiastically positioning responses to social problems. In 
building consensus around the Comprehensive Peace Agreement in 
Sudan, the Sudan Council of Churches, the Sudan Catholic 
Bishop's Conference and Sudan Interreligious Council works 
systematically to increase support for CPA among their local 
constituencies and to leverage local pressure on governmental 
parties while deriving support from regional and international 
religious councils in the form of materials, resources, 
insertions of skilled personnel and leveraging of pressure from 
other governments and multilateral organizations in support of 
CPA. But without the credibility local councils had with their 
Sudanese constituencies across denominational and religious 
lines, the external support for CPA may not have been 
sufficient to keep the process from collapsing. These local, 
regional and international faith-based collaborations are 
continuing to evolve in East Africa in response to ongoing 
problems in Sudan, Eritrea, Somalia and elsewhere. The 
Religious Leaders Peace Initiative, for example, a multilateral 
interfaith initiative involving faith leaders from various 
denominational and conciliar bodies as well as staff from the 
Intergovernmental Authority on Development are facilitating 
broad-based dialogue and research and training in response to 
conflicts in the region. With increased capacity, the 
contributions by these religious councils to mediation and 
peacemaking can be expanded. Unfortunately, expanding mediation 
and peacemaking activities of religious organizations seemingly 
has not been a U.S. foreign policy priority. There has been a 
policy interest in faith-based organizations within the context 
of the AIDS relief prioritizations within U.S.-Africa policy, 
but very little attention to the strategic positioning of 
faith-based organizations for crucial mediation and peacemaking 
work. So my recommendation is that more attention be given 
within the overall government strategy to utilizing and helping 
to expand the mediation and peacemaking capacities of religious 
councils. To cite one other piece of information related to 
this, Mr. Chairman, the PEPFAR program, as you know, is the 
most extensive operation that the U.S. Government has affecting 
African countries, with $15 billion allocated in 2003 for 
disbursal over 5 years and another $48 billion allocated in 
reauthorization in 2008. Ten percent of those monies went to 
FBOs, faith-based organizations, but only $220 million has been 
allocated in the USAID's 2008 budget for democratic reform. So 
the very real gap between the monies allocated toward PEPFAR 
versus the monies allocated for democratic reform in which many 
of these interfaith and interdenominational groups could play a 
role in mediation and reconciliation work is underfunded and 
certainly needs to have more attention. Thank you, Mr. Chairman 
and committee members, for allowing me to share a few 
perspectives on these issues.
    Mr. Smith of New Jersey. Dr. Smith, thank you so very much 
for your testimony and for bringing very close scrutiny on the 
issue in Cameroon, which this committee is deeply concerned 
about. But you have highlighted that, particularly with your 
listing of priests and nuns and bishops who have been killed 
there. We have not spent, frankly, enough time on this 
committee focusing on that in Cameroon. So I thank you for that 
and for the other very fine points that you made.
    [The prepared statement of Mr. Smith follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. Mr. Payne does have to leave. So I 
would like to yield to him first if he could----
    Mr. Payne. Thank you very much. Of course several members 
have been waiting for me for about half an hour, so I really 
have to leave. But let me just thank all of you for your 
testimony.
    The situation must improve. I just might ask you, Dr. 
Smith, it seems like it is a new phenomena so far as I know 
that the extremists--that there has always been this conflict 
in Africa. However, it seems to me to be only in the last 
decade, or less even, that we have seen this question of 
phenomena of suicide bombings. This was not African. I mean, 
they might have been at war, but as we have seen in Somalia now 
and everyone in Nigeria, we have seen this phenomena of suicide 
bombing. And I wonder--and they are doing it under these people 
who are taking advantage of Islam. Have you--do you know when 
this change occurred? And have you noticed the fact that there 
is an increase in that, when in the past it seemed to have been 
absent?
    Mr. Smith. Thank you, Mr. Payne. I cannot date the exact 
time in which that form of activity gained the kind of 
prominence that it has. I would say in response to your 
question that one of the things that is important to note in 
the discussion of religious freedom and the denials and the 
declines of religious freedom in many contexts is the extent to 
which governments and opportunistic groups can manipulate 
perspectives and ongoing grievances within context and move 
them in directions that had not necessarily been the role 
religion played within those particular contexts.
    So in these countries and where these types of activities--
the suicide bombing activities are taking place, that would 
certainly be an instance where these situations of religion are 
being manipulated by nonreligious groups who really have issues 
in mind and concerns in mind that are not specific to the 
religious community, manipulating religion for purposes that 
are political in nature.
    So I don't think that you would necessarily find that kind 
of activity taking place in countries that are not border 
countries to the Islamic world, where some of these things have 
occurred with more frequency, the ability of governments and 
other groups to manipulate that particular fact. It would 
probably be far less in countries where it has not been an 
inherent part of the culture or at least a growing part of the 
cultural milieu within those contexts.
    Mr. Payne. And you raise a point about comparing the amount 
of funds that we have for PEPFAR and the very small amount for 
democracy and public diplomacy. So in your view, you know, what 
is the role of public diplomacy in promoting religious freedom? 
And I think it is clear from your previous comments, but is the 
U.S. doing enough to work with indigenous community-based 
interreligious mediation organizations, such as the 
internationally acclaimed Interfaith Mediation Center headed by 
Imam Mohammed Ashafa and the Pastor James Wuye in Nigeria?
    Mr. Smith. Yes, thank you, Mr. Payne. The short answer to 
the question is that I don't believe enough is being done to 
engage the very vital resources both in terms of moral 
resources, relational resources, and infrastructural resources 
that are embodied by interfaith groups and interdenominational 
councils across the African continent, and other places 
undoubtedly. But certainly in sub-Saharan Africa there is a 
very rich network, a very rich infrastructure of these 
organizations. As I mentioned, there are not only local 
councils, both interfaith and interdenominational, within many 
counties, but there are regional councils in every region of 
Africa, east, west, southern and the Horn and the Great Lakes 
region.
    There is also the All-African Conference of Churches which 
is continent-wide in its impact and its involvement on various 
issues, particularly peacemaking issues.
    So there are significant resources and possibilities for 
involvement by these structures and by these religious leaders 
to engage in the very important work of mediation and 
reconciliation and peacemaking within these contexts.
    Not all of these situations of religious conflict are 
necessarily susceptible to government mediation or 
demonstrations of hard power. Some of these situations can be 
perhaps prevented or mediated in some way by more soft-power 
diplomacy skills. And I think that is precisely what these 
faith leaders and faith organizations can bring to the table. 
They have credibility with local populations that has been 
demonstrated in a number of instances.
    The All-African Conference of Churches has worked very 
closely with the African Religious Leaders Council in East 
Africa on Interfaith Dialogue related to Sudan, Eritrea, 
Somalia, the ACC, and the Africa Religious Peace Council has 
also worked closely with the Africa Union who understands the 
importance of those infrastructures and those leaders to the 
mediation process, to the peacemaking process. The African 
Union combined efforts with the Africa Religious Peace Council 
in the Abuja initiative, a dialogue that took place not too 
long ago, to bring faith leaders around the table to discuss 
the issues of religious violence in Nigeria.
    So I think the African Union is demonstrating, as well as 
IGAD, the Intergovernmental Authority on Development, the 
importance that they place on the religious community for 
mediation and peacemaking. I think the U.S. Government through 
the State Department and other mechanisms can make much better 
use of those resources.
    Mr. Payne. Thank you very much. I just want to let--I 
appreciate your comments. And since time is short, I won't ask 
any other questions.
    But I do want to say to Reverend Shafie, I will be visiting 
Egypt in the next week or so. And I will look at your testimony 
and raise some issues with the authorities there, although it 
is not on the agenda. We are there to observe the elections 
coming up. But I think that these issues are important and if 
we get an opportunity to--and I know there will be an 
opportunity to be before some of the government authorities--I 
will certainly raise those issues.
    And secondly, if you have any other issues you would like 
to highlight, I will be leaving tomorrow, the last day, but you 
certainly can feel free to get anything to my office. But I do 
have your testimony in full that I will review and will take 
points from that. So thank you very much.
    Let me thank all of you. Thank you, Mr. Smith.
    Mr. Smith of New Jersey. Let me just ask some questions. 
Thank you, all four of you, for your very, very decisive 
testimonies.
    Bishop Ramirez, in your testimony, you, I think, provided a 
very robust and rich and deep definition of religious freedom. 
When the Church speaks, you write, about religious freedom, it 
is not arguing solely for freedom in matters of coercion of 
personal faith and conscience, it is also advocating for 
freedom to practice faith individually and communally in both 
private and public. Freedom of religion extends beyond freedom 
of worship to include the institutional freedom of the Church 
and religious organizations to provide education, health, and 
other social services, and it then goes on from there.
    You also point out some very disturbing Pew studies that 
shows that 70 percent of the world's population have high or 
very high governmental or societal restrictions on religion. 
And you point out, most ominously, that as recently as August 
2011, a Pew study found that between 2006 and 2009, in some of 
the most populous countries affecting about a third of the 
world's population that China, Egypt, France, Nigeria, Russia, 
Thailand, Vietnam and the United Kingdom as eight countries 
where government or societal restrictions increased 
substantially while religious restrictions in countries such as 
India, Pakistan, Indonesia, Iran, Bangladesh, Saudi Arabia, 
Malaysia and Burma remain very high, I mean, a very serious 
erosion of religious freedom that you have highlighted which I 
think has been underscored by each of our witnesses, and I 
thank you for giving that broad sweep of the world.
    I don't think we are doing enough, I don't think Congress 
is doing enough. The fact that the Commission has been stymied 
over on the Senate side thus far underscores a lack of 
prioritization, and I think your point and others' points about 
the administration more fully integrating the irreligious 
freedom message in all of its rich manifestations has not 
happened so far. Hope springs eternal, hopefully they will, but 
it has not happened in my view.
    If I could specifically in Iraq, because I know the Church, 
all the churches have been extremely concerned about what 
happens when U.S. and coalition forces leave, it has been a 
dismal record while we were there, what happens when we leave? 
Do you have any recommendations, any of you, perhaps Bishop 
Ramirez, starting with you, on what we should be doing to 
ensure that as the baton is passed, the situation does not 
deteriorate further?
    Bishop Ramirez. I mentioned in my testimony, my oral 
testimony, that we had two bishops visit Iraq very recently, 
just 2 weeks ago they were there, and they were pressed by the 
Christians whom they visited that they are concerned about what 
would happen, what will happen when the U.S. troops leave, will 
there be any kind of protection. So we would hope that the U.S. 
would continue to monitor the situation and provide as much 
assistance as it can.
    On the issue of what can, what actions the President and 
the State Department could take against some of these countries 
that are egregious violators of religious freedom, some of 
these we might suggest are something like travel restrictions 
for some of the government leaders, arms sales, a restriction 
of arms sales to those countries, the sales of materiel that 
might eventually be used for torture.
    When I was in the Commission, we made an issue of that in 
certain countries that we not export certain materiel that 
could eventually be used as torture. Also, perhaps, economic 
sanctions aimed not at everybody in that country but especially 
at the elite so that we wouldn't hurt the vulnerable people in 
their particular country.
    So we do have those recommendations to make, and we would 
reinforce the recommendations of the Commission on taking these 
various actions on behalf of the President and the State 
Department.
    Mr. Smith of New Jersey. Thank you very much. Yes, did you 
want to touch on that?
    Rev. El Shafie. Now, when I visited Iraq, Mr. Chair, the 
major thing that took my attention is the Iraqi Government 
completely trying to blame Syria, the old regime, but they 
wouldn't touch on the persecution that is happening to the 
Christians there. They wouldn't touch on Iran.
    The major thing that took my attention is the increase of 
influence of the Iranian regime in Iraq.
    Let me put it in a very simple way. I spoke with one of the 
Iraqi officials in Iraq who indicated to me in private, I will 
not mention his name to protect him, but with me was one MP and 
one Senator that was witness to the conversation, John Weston 
and Bill Meredith, that when the Iraqi Government choose an 
administrator in Iraq the Iranian regime has to approve first. 
That is what was said to me in front of a Canadian Member of 
Parliament and a Canadian Senator, some very high official 
Iraqi.
    Now, here is the problem with that. If United States did 
not prevent Iran from taking over Iraq or to have an absolute 
increase of influence in Iran, as we can see, even Jaish-al-
Mahdi, the Mahdi Army, which is very responsible directly on 
the persecution of a lot of Christians in Iraq, such as Utra 
Conyerkos, who was kidnapped and tortured by them. And now he 
is 20 years old and he cannot even walk because they broke his 
back.
    Jaish-al-Mahdi start to integrate them in the Iraqi 
Government, the influence of Iran is increasing. And here is 
the problem, Mr. Chair. The United States, more than any other 
country in the world, paid very heavy price to free Iraq from 
dictatorship. To be exact around 5,000 American soldiers, 
around 52--American soldiers were wounded--5,000, almost 5,000 
American soldiers were killed. I will not even talk to you 
about the finance that the United States put in Iraq, I will 
talk to you about the blood. Because the blood you can't 
replace it, money you can. Blood you can't.
    Mr. Chairman, if we did not protect the Christians in Iraq, 
if we did not prevent Iran from increasing their influence in 
Iraq, our American soldiers, our American children, their 
blood, will go in vain.
    Thank you.
    Mr. Smith of New Jersey. Mr. Rogers, have I asked you, I 
know you recently visited Pyongyang with Lord Alton and 
Baroness Cox. As a matter of fact I was in email contact with 
Lord Alton prior to his traveling there most recently.
    Could you give us--you mentioned 200,000 people in camps. 
There is one show church, I understand, in Pyongyang, and if 
that is still up and running, what is the state of religious 
persecution in the Hermit Kingdom?
    Mr. Rogers. Mr. Chairman, thank you. Just before I answer 
that question could I correct one omission from my oral 
testimony where I neglected formally to request that my written 
testimony be included.
    Mr. Smith of New Jersey. Without objection, all of the 
testimonies will be put in the record.
    Mr. Rogers. Thank you very much. In answer to your 
question, I think one can say about North Korea, and it is not 
something one can say about too many countries, that there is 
no religious freedom in North Korea. There are actually three 
show churches in Pyongyang, one Protestant, one Russian 
Orthodox and one Roman Catholic.
    And we did visit all three of them, but I think it is fair 
to say that all three of them are show churches. The Catholic 
Church in particular is--the other churches have a veneer which 
can be deceptive. The Catholic Church has clearly no veneer 
because it does not have a priest. And we have raised this 
consistently with the North Korean authorities that there is no 
Catholic priest in the Catholic Church in Pyongyang.
    Instead there is actually a party cadre who looks almost 
like a stereotypical party cadre in a mouse suit with not even 
much of a smile. So the situation there was, really there were 
Potemkin style churches. Outside Pyongyang, to my knowledge, 
there are no churches permitted by the authorities. We believe 
that there are gatherings of Christians who meet at significant 
risk if they are caught.
    It's my understanding that anyone engaged in religious 
activity ends up in one of the prison camps and in some cases, 
not all, but in some cases they face execution for their 
religious faith and activities and particularly anybody who has 
been repatriated by China, people who have gone across the 
border to China, perhaps converted in China or had contact with 
South Korean Christian missionaries in China, if that is 
discovered or if they are discovered bringing Bibles back into 
North Korea, they face death or certainly extremely severe 
penalties.
    And just one final point, in relation to China's policy of 
repatriation, I think that is a really serious situation that 
so far the international community, including the United 
States, has failed to properly address for China. And I would 
want pressure to be put on China to stop repatriating North 
Koreans, some of whom are Christians and some of whom face 
severe penalties and violations of religious freedom.
    Mr. Smith of New Jersey. Thank you very much. I know, 
Bishop Ramirez, you have to leave for a flight, so I thank you 
on behalf of the committee for your testimony and very wise 
counsel and insights.
    Bishop Ramirez. Thank you very much.
    Mr. Smith of New Jersey. Just a few final questions, I know 
it is getting late, and we will submit some additional 
questions if you would as quickly as you can turn those answers 
around.
    Reverend El Shafie, if I could just add and reiterate 
something you mentioned earlier that I found outrageous as well 
when on October 10 the President of the United States said that 
he is deeply concerned--or the White House said, the President 
is deeply concerned about the violence in Egypt that has led to 
a tragic loss of life. Now that is fine of course.
    Now is the time for restraint on all sides so that 
Egyptians can move forward and forge a strong, united Egypt, 
clearly conveying a quality of culpability on both sides as if 
they weren't a victim and aggressor. Your point was, I think, 
very well taken and it is something that I raise as well.
    There is an aggressor. And as a matter of fact the Supreme 
Council of the Armed Forces, their staff, routinely come here 
and into the Pentagon. And to the best of my knowledge, we are 
saying investigate, but investigate yourself. It does raise 
very serious questions about credibility.
    And I do think it is time to look at that $1.3 billion and 
all money flowing to the country of Egypt because of this 
heightened crackdown on the Coptic Christians, as well as other 
religious minorities, but no one seems to be suffering more 
than the Coptics. So your points, I think were very, very, well 
taken.
    Rev. El Shafie. Could I just add one point before we move?
    Mr. Smith of New Jersey. Sure.
    Rev. El Shafie. Sorry, forgive me for interrupting you.
    I found that very disconcerting that this administration is 
missing the care and missing that action when it comes to 
freedom of religion. I am not just talking about that it was 
Egypt or the Arab Spring where you cannot expect that there is 
a democracy between them. When they are basically without 
education, democracy dies. Thirty to forty percent of the 
Egyptian population is illiterate. This means they cannot read 
or write their own name. So no matter how much you reform the 
Constitution, they still will not understand what is in it. So 
you have to start by education before you start by democracy.
    The support of some of the people in this administration, 
that they believe that Muslim Brotherhood is a peaceful 
organization, that is shocking to me. Muslim Brotherhood is the 
foundation of al-Qaeda, of Hamas, of Hezbollah, and they--and 
some of them, talking with them the--our Secretary of State 
went to meet with them in Cairo. After the meeting they came 
out of the meeting and they completely dismissed her. They 
actually spoke about her with disrespect.
    And not only Egypt or Iraq, Mr. Chair, but even in Iran, 
when President Obama gave his speech in Cairo in June 2009, a 
week later the Green Revolution has started in Tehran and 
nobody did anything from the American administration. And this 
is a fact, the fact that we cannot even stand against China.
    We know that China is killing the Uyghurs and the Falun 
Gong and the Christians and the Tibetans, and we cannot do 
anything because our financial and our economy depends on them. 
The truth and the reality that even the Ambassador-at-Large, 
Dr. Suzan Johnson Cook, is not here, that tells you something.
    Thank you, Mr. Chair.
    Mr. Smith of New Jersey. Just a few, couple final 
questions.
    Dr. Smith, the Department of State seems to view the North-
South conflict in Nigeria as primarily political in nature and 
not religious. Do you agree with that and why or why not?
    Mr. Smith. Thank you, Mr. Chairman. I think that clearly 
there are more than religious dimensions to the conflict, but 
religion is also a verifiable part of the conflict. One of the 
things that I think is important to do in order to--because 
there are clearly tensions within official circles about where 
the conversation on religious freedom fits with overall 
government U.S. policy in various parts of the world, and I 
think it is important that as we pursue the conversation on 
religious freedom that we are careful to emphasize not only the 
religious freedom dimensions but to emphasize those within a 
larger conversation about denial of civil liberties and 
political freedoms in general.
    I think to tie the religious freedom discussion to a very, 
very clear and detailed concern about impediments to religious 
or to freedom of expression, impediments to freedom of 
assembly, gives the religious freedom discussion a kind of 
breadth.
    And in the Nigerian context I think it is quite important 
to place that in context and Nigeria would not be the only 
African context where there are some concerns about the real 
agenda behind the discussion of religious freedom. I think in a 
number of African contexts there are concerns that the way 
religious freedom is being discussed, it is being discussed as 
sort of an extension of the global war on terror or perhaps 
even as an extension of the ecclesiastical expansion concerns 
of American churches and proselytizing concerns of American 
churches.
    I think to tie the religious freedom discussion more 
closely to these very real and legitimate political and civil 
liberties issues helps to ground the discussion so that we 
don't have the kind of pushback on our religious freedom 
issues. Clearly Nigeria is about more than just the religious 
freedom issue, but it is very much a part of the conversation 
as well.
    Mr. Smith of New Jersey. If you could on Eritrea, we know 
that some Christians and Jehovah's Witnesses have been locked 
into containers and died when put out into the desert.
    How widespread is that? We know others have been killed, 
obviously in jail and tortured to death. And who has leverage 
with the Eritreans, with their leadership?
    Mr. Smith. Thank you, Mr. Chairman. I think, unfortunately, 
with the Eritrean situation, what we have is the context of 
virtually a failed state, a failed state and the virtual 
absence of a civil society sector. And so in the absence of any 
kind of civil society groups that can really challenge the 
government on these issues, I think the situation is bound to 
continue and to grow worse.
    The pressure, I think, will have to come from outside of 
Eritrea to a great extent, not necessarily outside the 
continent or the region.
    Mr. Smith of New Jersey. Like the AU.
    Mr. Smith. Like the AU and like some of these regional and 
continent-wide interfaith and interdenominational groups as 
well as U.S. Government, the European Government, the pressures 
on the Eritrean situation. There is virtually little that is 
going on inside of Eritrea that is going to provide the 
pushback that is needed.
    Mr. Smith of New Jersey. Bishop Ramirez said, and I meant 
to ask him before he left, that the greatest number of 
religious persecutions and discriminatory activities is 
directed at Christians. Would you all agree with that in terms 
of numbers?
    Rev. El Shafie. Yes.
    Mr. Rogers. Yes, I would.
    Mr. Smith. I think the numbers probably stack up that way.
    Mr. Smith of New Jersey. And it is in his written 
testimony, so it is part of the record.
    Let me just ask a couple of final questions before we 
conclude.
    Mr. Rogers, can you explain why you think concerns exist 
over the rule of law in Indonesia and exactly what you saw when 
you visited GYI, Yasmin Church in Bogor, and secondly, you 
mentioned new restriction of religious freedom in the Kachin 
State in Burma, and maybe perhaps you could elaborate on that 
for the committee.
    And Reverend El Shafie, if I could ask you, we focused on 
this committee in the past on the UNRWA textbooks that the 
Palestinian Authority uses that are rife with anti-Semitic 
statements as well as anti-American with the rise in Hamas, 
which was very much responsible for that anti-Semitic hatred, 
as well as anti-Christian and anti-Americans and anti-Israel. 
Have you seen any abatement with any of that, have you followed 
that closely at all? Because it seems to me, as has been said, 
and it is in the report that the Commission put out about the 
absolute essential character of teaching. If you teach young 
people to hate, they will hate, and it is very hard to change 
that behavior when it has been so indoctrinated into a young 
man or a young woman.
    I remember in one of my previous hearings, we had a man 
from Saudi Arabia whose brother had been imprisoned who brought 
the textbooks and read from them and said this is what a little 
8-, 9-, 10-year-old is subjected to in terms of hate formation, 
and I am just wondering if you might want to speak to that as 
well. But then if you could start and then we will go to----
    Mr. Rogers. Thank you, Mr. Chairman. In relation to serious 
concerns of the rule of law in Indonesia, I think there are two 
clear examples that illustrate this. One is the DKIS in the 
case of Charles Kamanti because you specifically referenced 
that.
    But the other is the trial earlier this year following a 
very brutal attack that I described very briefly in my opening 
statement, attack on the Ahmadiyya community, in a town called 
Cikeusik, a mob of about, of more than 1,000 people attacked a 
community of 21. Of the perpetrators who carried out that 
attack, only three individuals were arrested and put on trial.
    During the trial, one of the Ahmadi survivors was subjected 
to the most extraordinary verbal harassment by the judge, and 
that is actually available on YouTube, it was captured on 
video. And the three perpetrators were sentenced--and these 
were people who carried out murder and other really, really 
seriously violent acts--were sentenced to between 3 and 6 
months in jail. And one Ahmadi man, who had simply been there 
to try to protect his community--he hadn't actually engaged in 
any violence--but he was sentenced to 6 months for disobeying 
police orders to leave his home. To me that says something is 
wrong with the rule of law when people who carry out these 
kinds of acts receive those kinds of light sentences.
    The case of GKI Yasmin Church also illustrates a breakdown 
in the rule of law because this is a church that some years ago 
secured all the necessary permissions and licenses to set up as 
a church. The local mayor actually approved the construction of 
the church. The local mayor then came under pressure from 
extremist groups and reversed his decision.
    The church challenged this decision in the courts at every 
level, a local court, district court and all the way to the 
Supreme Court. And then we staged the court rules in the 
church's favor all the way out to the Supreme Court. The 
Supreme Court has ruled that the church should be allowed to 
open, is legal, and the mayor is still refusing to allow it to 
open.
    When I visited the church for its Sunday service just a few 
weeks ago, they are worshipping in the street outside the 
church building because the church building is locked and 
sealed. They are surrounded by rows of police for their own 
protection, because there is a mob of extremists on the other 
side of the police, and it is the first time I have ever 
worshipped on a Sunday morning in the streets surrounded by 
police, who in this particular case were there to protect the 
congregation. But nevertheless the church should be allowed to 
open, and it is now a rule of law issue because the mayor is in 
defiance of the Supreme Court ruling.
    In answer to the situation in Kachin, just in recent 
weeks--the Kachin are a predominantly Christian people along 
the border with China. And in recent weeks Burma army soldiers 
have attacked several churches. They shot at worshippers in an 
Assembly of God church, injuring several people, including the 
pastor and the deacon. And they also seized control of a 
Catholic Church where they shot at the congregation during a 
Sunday service and beat the priest assistants with a rifle 
butt.
    They have introduced legislation in one particular 
township. We don't know yet whether this is being applied in 
other parts of the country, but in one particular township in 
Kachin State on the 14th of October, an order was sent 
requiring Christians to seek permission from the local 
authorities at least 15 days in advance and with several 
letters of recommendation from government departments, require 
15 days in advance if they want to pray, read the Bible, carry 
out Bible studies, carry out Sunday school or fast. And I have 
never seen that in Burma before that one should apply 15 days 
in advance simply to pray or read the Bible. But that is a new 
order in one locality at least.
    Mr. Smith of New Jersey. Reverend.
    Rev. El Shafie. Thank you, Mr. Chair. Mr. Chair, what we 
are seeing right now in the Palestinian territory is not only 
happening in Gaza, it is happening in the Palestinian Authority 
areas, which are supposed to be the ones that are less 
extremist in education.
    But what we are seeing right now in the Middle East when it 
comes to schoolbooks with regard to anti-Semitism is what we 
call this in the free world, it is in essence the new kind of 
anti-Semitism. Now the old kind of anti-Semitism is basically 
that you attack the Jewish people. Here is a Jewish person. So 
kill the Jewish, or no Jewish allowed and all of the stuff.
    Now the new anti-Semitism is not necessarily pointed at the 
Jewish people, but pointed at Israel, that they exist in Israel 
as a nation and the people who live in it. Now, I am not saying 
that we were not allowed to criticize Israel. Israel is a 
country like any country, has its good, has its bad, of course, 
but I am seeing once you cross this line of just useful 
criticizing to denying their existence or denying the right to 
defend itself, this becomes anti-Semitism. This becomes a new 
kind of anti-Semitism. That is in my opinion.
    And right now we are seeing these books not only in the 
Palestinian areas, not only the Palestinian territory, even in 
Egypt, for example, a country that has a peace agreement with 
Israel for 62 years.
    So basically what we are seeing right now is that what I 
can say is preparing a new generation for hatred and war and 
the only solution that we can do right now with this regard is 
basically that our aid, to aim more on the programs in these 
countries that basically would promote harmony and interfaith 
and will put some pressure on the governments to change these 
textbooks.
    And you are right, once the child learned this in his young 
age--sir, I mean to tell you, when I was in Egypt, 9 years old, 
I was in a school in Egypt. One day I went to my history 
teacher and I ask him why do we hate Israel in the schoolbooks, 
in the history books while we have peace agreement with them? I 
was 9 years old and I received 10 beatings from a stick on my 
hand.
    Mr. Smith of New Jersey. Just for asking.
    Rev. El Shafie. Just for asking this question, and the 
stick--it took very long time for the teacher to understand the 
truth, but it is never too late. That is what I know, it is 
never too late to act now.
    Thank you.
    Mr. Smith of New Jersey. You know Natan Sharansky made a 
very famous speech where he talked about how you recognize when 
it is not just disagreeing with an Israeli policy, and he calls 
it the three Ds definition. The first is demonization of 
Israel, second delegitimization, and the third denial of 
Israel's right to exist. So it certainly comports with exactly 
what you just said.
    Rev. El Shafie. What we are seeing right now in the Islamic 
faith, if I may, the biggest dilemma that Islam as a faith is 
facing is not rising of the extremists but is the silence of 
the moderate Muslims. What I am really saying here is, sir, can 
I be just not politically correct just for half a minute and 
after this I will be politically correct again if you want to.
    What we are facing right now is when you sit down with a 
Muslim community that is supposed to be--really the key thing 
teaching the children and supposed to improve their ideas about 
Jewish people and Christians, they will ask from us not to 
judge them on the actions of the extremists and they will tell 
me that the extremists did hijack the religion. Well, why did 
you let them hijack it? Is this not a Christian question? Why 
did you let them hijack it? It is not--the dilemma of the 
Islamic faith is not the rising of the extremists, of the 
moderate Muslims who remain silent on the crimes that happened 
to the Jews and the Christians.
    Thank you, sir.
    Mr. Smith of New Jersey. Dr. Smith, I have one final 
question and then any final comments any of the three of you 
would like to make.
    In your discussion about Cameroon you point out that in the 
last 25 years a number of Catholic leaders have been killed in 
Cameroon under suspicious circumstances, and you list a number 
of those who have died. From reading it correctly, the last was 
in 2006. And in your statement you say according to a 2009 
report on challenges faced by churches in Cameroon, ``Catholics 
are broadly convinced these killings were an effort to 
intimidate the Church to keep it out of politics.''
    When you say war, do you mean is it truly past tense or is 
it past tense and present tense as well?
    Mr. Smith. Thank you, Mr. Chairman. No, I definitely am 
alluding to a fact that it is an ongoing problem. In 2009 that 
was a report and that was reported during that time. But when I 
was actually in Cameroon in 2010, I believe it was as a 
Fulbright professor, the kinds of concerns that are itemized in 
the report came out very clearly from many of the students, 
religious leaders around the country about the ongoing 
intimidation, coercion, repression of Christian churches, 
particularly in--and also Muslim groups--and particularly in 
the Anglophone section of Cameroon, which is the least 
developed part of the country, sort of the minority population 
within the larger Francophone context, and the extent to which 
the national government has manipulated leaders even of 
religious communities within the Anglophone section as a means 
of suppressing the voices of resistance. That was quite 
extensive and to the point that I think many of the religious 
leadership that I spoke with felt that they had very little 
ability to truly express their point of view, their interests, 
their concerns and in some respects, even, to truly express 
matters that they felt were at the heart of their faith 
experience.
    Their religious experience was not just an individualistic 
concern, their religious experience was about community and the 
ability of community to be able to form freely and to represent 
an embodied interest of constituencies that they represent.
    Mr. Smith of New Jersey. Any final comments from any of our 
witnesses? Yes.
    Mr. Rogers. Mr. Chairman, I would just like to firstly 
thank you again very much and other members for your leadership 
on this issue.
    I would like to just make a couple of final points. On the 
positive side, coming from the United Kingdom, not being a U.S. 
citizen and not being embroiled in domestic politics in the 
United States, we really appreciate the United States' 
leadership on the issue of international religious freedom, the 
leadership that you have given them, other Members of Congress, 
but also the leadership that the State Department and the U.S. 
Commission on International Religious Freedom have given over 
the years.
    I think the United Kingdom is perhaps trying to catch up, 
and I was in Europe also. There was a recent conference in the 
United Kingdom on international religious freedom and the new 
government, I think, is prioritizing it much more than they 
used to. But over the years the United States has given this 
issue real leadership, which those of us who work on 
international religious freedom in other parts of the world 
deeply appreciate.
    However, in recent months I think we have been very 
concerned by some of the trends in the United States, the 
serious delay in the nomination and appointments of the 
Ambassador-at-Large. It is concerning that the Ambassador-at-
Large was not here today and also the issues regarding the 
reauthorization of the Commission, and I hope very much that 
all those concerns that have arisen in recent months will be 
addressed and that the United States will really continue and 
increase its important leadership on this very important issue.
    Mr. Smith. Thank you, Mr. Chairman. One brief comment. 
First of all, again, thank you for the opportunity to be here 
and share perspective on this important issue today, and I 
think it is a very important issue. I think that the ongoing 
work around religious freedom is vital and the work of this 
committee, the work of the Commission, the work that other 
sectors of the U.S. Government is doing on this important 
topic, and I would hope that there would be ways to really have 
bipartisan cooperation around these issues so that the 
important issue of religious freedom does not somehow get lost 
in the politics.
    And I think what I tried to do here today is to suggest 
that there are some mechanisms for bridging that may draw a 
wider level of support for the issue of religious freedom, not 
only within U.S. Government conversations, but also with our 
partners around the world on these issues. And I think that one 
of those ways is to demonstrate that religious freedom is an 
issue that transcends some of the kind of divisions that we 
have in our conversations about that by situating that more in 
a larger conversation of civil liberties and political 
freedoms.
    Thank you.
    Mr. Smith of New Jersey. And on those fine comments, the 
hearing is adjourned.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
